Department of Homeland Security
   Ofﬁce of Inspector General



            The Performance of 287(g) Agreements 





OIG-10-63                                        March 2010
                                                            Office of Inspector General

                                                            U.S. Department of Homeland Security
                                                            Washington, DC 20528




                                                             Homeland
                                                             Security
                                     MAR - 4 2010

                                         Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the performance of 287 (g) agreements between Immigration and
Customs Enforcement and state and local law enforcement agencies. It is based on
interviews with employees and officials of relevant agencies and institutions, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                     ~~o(.~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations 

Executive Summary .............................................................................................................1
 


Background ..........................................................................................................................2
 


Results of Review ................................................................................................................5
 


     Overview of the 287(g) Program ...................................................................................5 


     ICE and LEAs Have Not Complied With All Terms of 287(g) Agreements ................7 


     287(g) Performance Measures Do Not Align With Program Objectives ......................8 

        Recommendations....................................................................................................9 


     ICE Needs to Establish Guidance for Supervising 287(g) Officers and Activities .....10 


           Field Office Staffing Plans Need to Incorporate 287(g) Supervisory 

           Responsibilities ......................................................................................................10 

               Recommendations............................................................................................11 


           ICE Needs to Ensure Consistency in 287(g) Supervision .....................................12 

              Recommendation .............................................................................................13 


     ICE Needs to Enhance 287(g) Program Oversight ......................................................14 

        A Comprehensive Review Process Is Needed to Assess Ongoing 287(g) 

        Agreements ............................................................................................................14 

           Recommendations............................................................................................15 


     Steering Committees Have Not Been Used to Assess Immigration Enforcement 

     Activities ......................................................................................................................15

             Recommendation .............................................................................................16 


           Suitability Reviews Have Not Been Performed Consistently................................16 

               Recommendation .............................................................................................18 


           Guidelines for Handling Complaints and Allegations Against 287(g) Officers 

           Need To Be Developed..........................................................................................18 

              Recommendations............................................................................................19 


           ICE Needs to Ensure Proper Guidance and Supervision for Variations

           Within the Jail Enforcement and Task Force Program Models.............................19 

              Recommendation .............................................................................................21 


           More Frequent Inspections of 287(g) Program Sites Could Improve Overall 

           Program Operations ...............................................................................................21 

              Recommendation .............................................................................................22 

Table of Contents/Abbreviations 

  Application Review and Selection Process Needs to Be Enhanced ............................22 


       Civil Rights and Civil Liberties Considerations Are Not Consistently 

       Weighed in the 287(g) Application Review and Selection Process ......................22 

          Recommendations............................................................................................24 


       Data from ICE Field Offices Need to Be Fully Evaluated During the 287(g) 

       Application Review and Selection Process............................................................24 

          Recommendation .............................................................................................25 


  ICE Needs to Establish 287(g) Data Collection and Reporting Requirements to
  Address Civil Rights Issues .........................................................................................25 

     Recommendation ...................................................................................................27 


  287(g) Training Does Not Fully Prepare Officers for Immigration Enforcement
  Duties ...........................................................................................................................27
 

     287(g) Basic Training Does Not Satisfy MOA Requirements ..............................27 

          Recommendations............................................................................................29 


       Hands-On Training in Immigration Systems and Processing Needs to Be 

       Increased ................................................................................................................30 

           Recommendation .............................................................................................31 


       Knowledge of Immigration Benefits and Protections Needs to Be Reinforced ....31 

          Recommendation .............................................................................................32 


       287(g) Officers Did Not Consistently Complete Refresher Training....................32 

          Recommendation .............................................................................................33 


       The Use of Interpreters Is Inconsistent ..................................................................33 

          Recommendations............................................................................................34 


  ICE Needs to Increase the Availability and Accuracy of 287(g) Program

  Information ..................................................................................................................34


       There Are Barriers to Obtaining 287(g) Program Information..............................35 

          Recommendations............................................................................................36 


       ICE Needs to Improve the Accuracy of 287(g) Program Information 

       Provided to the Public............................................................................................36 

          Recommendation .............................................................................................37 


       Inadequate Information Is Available on the Complaint Process ...........................38 

          Recommendations............................................................................................38 

Table of Contents/Abbreviations 

         287(g) Program Information and Training for LEA Supervisors Can 

         Improve the Operating Environment .....................................................................39 

            Recommendation .............................................................................................40 


    287(g) Officers Need More Consistent Access to DHS Information Systems............40 

       Recommendation ...................................................................................................42 


    Additional Issues Identified .........................................................................................42 


         ICE Has Used Unauthorized Detention Facilities to Detain Aliens Identified 

         Through the 287(g) Program .................................................................................43 

            Recommendation .............................................................................................43 


         ICE Vehicles Have Been Underutilized ................................................................44 

            Recommendation .............................................................................................44 


Management Comments and OIG Analysis ......................................................................45 


Table

    Table 1: 287(g) Program Funding.................................................................................4 

    Table 2: 287(g) Encounters and Removals...................................................................6 

    Table 3: Jurisdictions Participating in the 287(g) Program ........................................83 


Appendices
 

    Appendix A:         Purpose, Scope, and Methodology.......................................................62 

    Appendix B:         Management Comments to the Draft Report .......................................64 

    Appendix C:         287(g) Application and Approval Process...........................................77 

    Appendix D:         ICE ACCESS Programs.......................................................................79 

    Appendix E:         287(g) Program Jurisdictions...............................................................83 

    Appendix F:         Major Contributors to This Report ......................................................86 

    Appendix G:         Report Distribution ..............................................................................87 

Table of Contents/Abbreviations 


Abbreviations
  ACCESS        Agreements of Cooperation in Communities to Enhance Safety and
                Security
  CIS           Central Index System
  CLAIMS        Computer Linked Application Information Management System
  DHS           Department of Homeland Security
  DOJ           Department of Justice
  DRO           Office of Detention and Removal Operations
  ENFORCE       Enforcement Case Tracking System
  GAO           Government Accountability Office
  ICE           U.S. Immigration and Customs Enforcement
  IDENT         Automated Biometric Identification System
  IEA           immigration enforcement agent
  IGSA          Inter-Governmental Service Agreement
  IT            information technology
  JEO           jail enforcement officer
  LEA           law enforcement agency
  LESC          Law Enforcement Services Center
  MOA           Memorandum of Agreement
  NFTS          National File Tracking System
  NGO           nongovernmental organization
  OCIO          Office of the Chief Information Officer
  OI            Office of Investigations
  OIG           Office of Inspector General
  OPR           Office of Professional Responsibility
  OSLC          Office of State and Local Coordination
  REPAT         Removal of Eligible Parolees Accepted for Transfer
  TFO           task force officer
  U.S.C.        United States Code
OIG
 

Department of Homeland Security
Office of Inspector General

Executive Summary
                The Department of Homeland Security’s Immigration and
                Customs Enforcement delegates federal immigration enforcement
                authorities to state and local law enforcement agencies through its
                authority under section 287(g) of the Immigration and Nationality
                Act, as amended. The Consolidated Security, Disaster Assistance,
                and Continuing Appropriations Act of 2009, and accompanying
                House Report 110-862, require that we report on the performance
                of 287(g) agreements with state and local authorities.

                287(g) agreements set general parameters for program activities and
                establish a process for Immigration and Customs Enforcement to
                supervise and manage program activity. Pursuant to Memoranda of
                Agreement with state and local law enforcement agencies,
                Immigration and Customs Enforcement permits designated officers
                to perform certain immigration enforcement functions.

                We observed instances in which Immigration and Customs
                Enforcement and participating law enforcement agencies were not
                operating in compliance with the terms of the agreements. We also
                noted several areas in which Immigration and Customs Enforcement
                had not instituted controls to promote effective program operations
                and address related risks. Immigration and Customs Enforcement
                needs to (1) establish appropriate performance measures and targets
                to determine whether program results are aligned with program
                goals; (2) develop guidance for supervising 287(g) officers and
                activities; (3) enhance overall 287(g) program oversight; (4)
                strengthen the review and selection process for law enforcement
                agencies requesting to participate in the program; (5) establish data
                collection and reporting requirements to address civil rights and civil
                liberties concerns; (6) improve 287(g) training programs; (7)
                increase access to and accuracy of 287(g) program information
                provided to the public; and (8) standardize 287(g) officers’ access to
                Department of Homeland Security information systems.

                We are making 33 recommendations for Immigration and Customs
                Enforcement to strengthen management controls and improve its
                oversight of 287(g). Immigration and Customs Enforcement
                concurred with 32 of the recommendations.
Background
                          In September 1996, Congress authorized the executive branch to
                          delegate immigration enforcement authorities to state and local
                          government agencies. The Illegal Immigration Reform and
                          Immigrant Responsibility Act of 19961 added section 287(g) to the
                          Immigration and Nationality Act.2 Under Section 287(g), the
                          Secretary of Homeland Security is authorized to enter into
                          agreements with state and local law enforcement agencies for the
                          purpose of delegating immigration enforcement functions to select
                          officers.3 The law requires that this delegation of immigration
                          enforcement authorities be executed through formal, written
                          agreements.

                          The federal government did not enter into any 287(g) agreements
                          with state or local jurisdictions until 2002. Over the next 4 years,
                          the Department of Homeland Security (DHS) delegated
                          immigration enforcement authorities to six jurisdictions. After
                          2006, however, increased interest in interior immigration
                          enforcement at the state and local levels and more dedicated
                          funding for federal 287(g) program efforts brought substantial
                          growth to the program. As of June 2009, DHS had 66 active
                          agreements with state and local law enforcement agencies (LEA)
                          in 23 states, and 833 active 287(g) officers.

                          The agreements are executed in the form of a Memorandum of
                          Agreement (MOA) between the Assistant Secretary for
                          Immigration and Customs Enforcement (ICE) and the participating
                          agency’s authorized representative. 287(g) agreements authorize
                          participating officers to exercise a range of immigration
                          enforcement functions that differ in terms of the program’s model
                          and function. The MOAs define the scope and limitations of the
                          authority to be designated to the LEA.

                          MOAs identify 287(g) personnel eligibility standards, training
                          requirements, and complaint-reporting procedures. The MOAs
                          require state and local participants to enter program data into ICE
                          information systems, and abide by federal civil rights statutes and
                          regulations, including Department of Justice (DOJ) “Guidance
                          Regarding the Use of Race by Federal Law Enforcement

1
  P.L. 104-208, sec. 133, Sept. 30, 1996. 

2
  Codified at 8 U.S.C. 1357(g). 

3
  The text of 8 U.S.C. 1357(g) specifically names the Attorney General, rather than the Secretary of 

Homeland Security, as having this authority. However, this and other immigration enforcement functions
 

of the Immigration and Naturalization Service were transferred to the Department of Homeland Security 

under the Homeland Security Act of 2002. (6 U.S.C. 251.)
 


                                  The Performance of 287(g) Agreements

                                                 Page 2
Agencies.” The agreements permit LEAs to perform immigration
enforcement activities only under ICE supervision, and allow ICE
to suspend or revoke participating officers’ authority at any time.

MOAs also indicate which of two ICE program models the
jurisdiction is to use. ICE authorizes participating jurisdictions to
employ a jail enforcement model, task force model, or a
combination of the two.

   �	 Jail Enforcement Model. Under this model, 287(g) officers
      working in state and local detention facilities identify and
      process removable aliens who have been charged with or
      convicted of an offense. ICE refers to 287(g) officers
      operating in these settings as jail enforcement officers (JEO).
      JEOs generally work under the supervision of ICE Office of
      Detention and Removal Operations (DRO) personnel.

   �	 Task Force Model. Under this model, 287(g) officers
      identify and process removable aliens in community
      settings. They do so during their regular duties as patrol
      officers, detectives, or criminal investigators; or in close
      coordination with ICE in task force settings. ICE refers to
      these 287(g) officers as task force officers (TFO). TFOs
      work under the supervision of ICE Office of Investigations
      (OI) personnel.

287(g) officers are authorized to question aliens as to their
immigration status and removability, serve warrants for
immigration violations, and issue immigration detainers for state
and local detention facilities to hold aliens for a short time after
completing their sentence. 287(g) officers prepare charging
documents for ICE agents’ signature that are used in immigration
courts, processing aliens for removal, and transporting aliens to
ICE detention facilities. Many are also authorized to arrest aliens
attempting to unlawfully enter the United States, as well as aliens
already unlawfully present.

In July 2009, ICE released a new template for 287(g) agreements
to replace existing agreements. ICE announced that only
jurisdictions with newly signed agreements would be permitted to
continue enforcing federal immigration laws, and provided 90 days
for participating LEAs to sign a new agreement based on this
template. As of October 2009, ICE had signed agreements with 61
LEAs based on the revised MOA template. ICE had agreed in
principle with 6 other LEAs on the terms of the new MOA


       The Performance of 287(g) Agreements

                     Page 3
                               template, but the MOAs for these LEAs were still pending final
                               approval by a local governing body.4

                               As shown in table 1, funding for the 287(g) program has increased
                               significantly on an annual basis since FY 2006, when $5 million
                               was allocated for ICE to facilitate agreements, to $54.1 million in
                               FY 2009.

                               Table 1. Allocated 287(g) Program Funding
                                    Fiscal           Funding         Percentage
                                    Year            in millions       Change
                                    2006                 $5.0
                                    2007                $14.4          188%
                                    2008                $42.1          192%
                                    2009                $54.1          29%
                                    2010                $68.0          26%
                               Source: ICE Office of State and Local Coordination.

                               ICE does not provide direct funding to participating jurisdictions,
                               although it does provide financing for officer supervision
                               activities, training, and related expenses, as well as information
                               technology (IT) equipment and services. Participating LEAs are
                               responsible for salaries and benefits of their personnel performing
                               immigration-related functions under the agreement. The LEAs are
                               also responsible for travel costs, housing, and per diem associated
                               with required training for participation in the program. ICE does,
                               however, reimburse some jurisdictions for housing aliens in ICE
                               custody at their facilities under separately negotiated Inter-
                               Governmental Service Agreements.

                               Within DHS, management and oversight of the 287(g) program
                               was initially provided by ICE OI. In December 2007, ICE
                               transferred these responsibilities to the newly formed Office of
                               State and Local Coordination (OSLC). In addition to setting
                               program policy and providing oversight, OSLC oversees budget,
                               asset management, and procurement services for the 287(g)
                               program. OSLC coordinates with the ICE Office of Training and
                               Development to design and deliver the 287(g) training program.
                               OSLC also facilitates other ICE operations with state and local
                               LEAs (see appendix D).

                               OSLC was initially staffed by eight detailed employees. OSLC
                               was authorized to hire eight employees in FY 2009, and requested

4
    Refer to appendix E for a list of participating jurisdictions.

                                       The Performance of 287(g) Agreements

                                                        Page 4
                 funding for an additional 21 for FY 2010. As of June 2009, OSLC
                 had five full-time employees, 12 detailed staff members, and nine
                 contractors.

                 OI and DRO field offices provide day-to-day supervision and
                 support for 287(g) officers. The ICE Office of the Chief
                 Information Officer (OCIO) furnishes and installs IT equipment,
                 and provides technical support for 287(g) officers’ DHS system
                 access needs.


Results of Review
     Overview of the 287(g) Program
          A primary objective of the 287(g) program is to enhance the safety and
          security of participating communities. Our review identified several
          aspects of the 287(g) program that are working to achieve program
          objectives, as well as challenges that may reduce its effectiveness.

                 Benefits of the 287(g) Program

                 DHS officials describe the 287(g) program as a force multiplier for
                 ICE. According to ICE OI agents, 287(g) officers provide
                 assistance such as following up on leads and performing
                 investigative research and surveillance. DRO staff acknowledged
                 the positive effect that 287(g) officers have had on their workload by
                 identifying removable aliens, conducting interviews to determine
                 alien status and removability, preparing charging documents, and
                 entering alien information into ICE information systems. Assistance
                 from 287(g) officers gives ICE greater flexibility in directing its
                 immigration law enforcement resources and functions.

                 Immigration enforcement efforts under the 287(g) program
                 account for a significant portion of nationwide ICE removal
                 activity. 287(g) officers identified 33,831 aliens who were
                 removed from the United States by ICE in FY 2008, which
                 represents 9.5% of all ICE removals during that fiscal year. In
                 addition, the cross-designation of state and local patrol officers,
                 detectives, investigators, and correctional officers working in
                 conjunction with ICE allows local and state officers more latitude
                 to investigate violent crimes, human smuggling, gang and
                 organized crime activity, sexually related offenses, narcotics
                 smuggling, and money laundering.



                        The Performance of 287(g) Agreements

                                      Page 5
    Table 2. 287(g) Encounters and Removals
                                      2006                         2007          2008          2009          Total

      Individuals Identified for Removal             6,224        24,400        49,847        62,714       143,185

      Fugitive Aliens (Absconders)                      3           112           750          1,816         2,681

      Previously Removed from US                       482        3,547          6,433         7,952        18,414
    Source: ICE Office of State and Local Coordination.

                            By using state and local LEA personnel to perform immigration
                            enforcement functions, the federal government reduces its costs for
                            these efforts. ICE is responsible for providing supervision,
                            training, computer equipment, and its installation and support
                            costs. Participating LEAs are responsible for all other expenses,
                            including 287(g) officer salaries and benefits. Entry-level ICE
                            special agents and immigration enforcement agents (IEA) cost
                            approximately $269,784 and $137,666, respectively, during the
                            first year of service.5 In contrast, participating 287(g) officers who
                            perform similar functions cost ICE $20,252 during their first year
                            of service.6 As such, ICE has increased the number of officers
                            participating in federal immigration enforcement efforts. As of
                            July 2009, 833 active LEA officers were participating in the 287(g)
                            program, which represents a 4% increase in the size of ICE’s
                            workforce

                            Challenges for the 287(g) Program

                            The most extensive immigration enforcement role for state and
                            local law enforcement agencies occurs as part of the 287(g)
                            program. Through the program, state and local LEAs assume
                            federal immigration enforcement powers. As such, the 287(g)
                            program often assumes a high profile in communities in which it
                            operates, and is one of DHS’ most visible and scrutinized
                            programs at the state and local levels.

                            ICE has taken measures to address related challenges and improve
                            overall program management in FY 2009. These include preparing
                            a draft OSLC strategic plan to identify key program tools,
                            processes, and stakeholders, and align goals and objectives with
                            DHS goals; communicating its immigration enforcement priorities

5
  Average first-year costs for ICE special agents and IEAs include salary, benefits, travel, recruitment, 

screening, training, office supplies and equipment, vehicles, weapons, operations and maintenance 

expenses, uniforms, and furniture. 

6
  Average first-year costs for 287(g) officers include training and training related expenses, as well as IT
 

equipment, equipment installation, and support.
 


                                    The Performance of 287(g) Agreements

                                                     Page 6
            to 287(g) program sites; setting a three-tier priority framework for
            arresting and detaining aliens identified through the program; and,
            developing standardized 287(g) agreements with partner
            jurisdictions. These measures represent positive steps in
            establishing a more effective program; however, significant
            challenges in administering the 287(g) program continue to exist.

            In delegating federal immigration enforcement authorities to state
            and local LEAs, ICE maintains responsibility for ensuring that
            local law enforcement officers function under the supervision of
            ICE officers. In addition, ICE must provide 287(g) officers with
            appropriate training on the complexities of immigration law and
            practice. The challenge for ICE is to balance its need for
            additional resources with efforts to ensure that these activities are
            conducted in accordance with the MOAs. In addition, ICE must
            ensure that its 287(g) efforts achieve a balance among immigration
            enforcement, local public safety priorities, and civil liberties.

ICE and LEAs Have Not Complied With All Terms of 287(g)
Agreements
     MOAs constitute the written agreement between ICE and the LEA to
     allow qualified personnel to perform certain functions of an immigration
     officer. However, 287(g) MOAs primarily consist of broad-ranging terms
     and conditions for ICE’s delegation of immigration enforcement
     authorities, with a limited number of specific requirements that direct day-
     to-day 287(g) operations.

     For areas of the MOA that provide specific guidance and requirements, we
     observed instances where 287(g) program practices were not in
     compliance with the MOA.

        �	 Prior to July 2009, MOAs required ICE field offices and LEAs to
           establish steering committees to meet periodically to review and
           assess the immigration enforcement activities conducted by the
           participating personnel and to ensure compliance with MOAs.
           However, only one of the seven jurisdictions we visited had
           established a steering committee that met on a regular basis.

        �	 MOAs indicate whether jurisdictions are authorized to perform
           immigration functions in community-based task force settings, jail
           enforcement settings, or both. The MOAs between ICE and four
           of the jurisdictions we visited indicated that 287(g) authority was
           to be used in a task force setting only; however, each of these
           jurisdictions had also used 287(g) authorities in jail settings.


                   The Performance of 287(g) Agreements

                                 Page 7
        �	 MOAs indicate that ICE will train 287(g) officers on the terms and
           limitations of the MOA and on public outreach and complaint
           procedures. However, 287(g) officers informed us that ICE
           instructors have not consistently delivered training on these topics
           during their basic training course.

     These three issues are addressed in more detail in our report, along with
     other areas in which ICE needs to provide increased guidance and
     direction to promote more effective and efficient 287(g) program
     operations.


287(g) Performance Measures Do Not Align With Program
Objectives
     Developing good performance measures is critical to ensure that programs
     are getting desired results. According to the Program Assessment Rating
     Tool used to achieve the goals of the Government Performance and
     Results Act, performance measurement indicates what a program is
     accomplishing and whether results are being achieved. It also provides
     managers with information on how resources and efforts should be
     allocated to ensure effectiveness and keep program partners focused on
     key program goals. Performance measures should be outcome oriented,
     relate to the overall program purpose, and have ambitious targets.

     According to ICE’s July 2009 MOA template, the purpose of
     collaborations between ICE and LEAs is to identify and process for
     removal criminal aliens who pose a threat to public safety or a danger to
     the community. ICE’s primary performance measure for the 287(g)
     program is the number of aliens encountered by 287(g) officers. ICE also
     collects information on the number of aliens identified through the 287(g)
     program who are subsequently removed by ICE. However, with
     performance measures that do not focus on aliens who pose a threat to
     public safety or are a danger to the community, there is reduced assurance
     that the goal of the 287(g) program is being met.

     ICE has developed a risk-based approach to ensure that program resources
     are allocated to identify and determine the immigration status of aliens
     arrested for crimes that pose the greatest risk to the public. To this end,
     ICE has identified categories of aliens that are a priority for arrest and
     detention, with the highest being Level 1 aliens. This category consists of
     those who have been convicted of or arrested for major drug offenses or
     violent offenses such as murder, manslaughter, rape, robbery, and
     kidnapping. Level 2 aliens are those who have been convicted of or
     arrested for minor drug offenses or property offenses such as burglary,
     larceny, fraud, and money laundering. Level 3 includes aliens who have
                   The Performance of 287(g) Agreements

                                 Page 8
been convicted of or arrested for other offenses. 287(g) resources are to
be prioritized according to these levels. However, although ICE has
developed priorities for alien arrest and detention efforts, it has not
established a process to ensure that the emphasis of 287(g) efforts is
placed on aliens that fall within the highest priority level.

We obtained arrest information for a sample of 280 aliens identified
through the 287(g) program at four program sites we visited. Based on the
arresting offense, 263, or 94%, were within one of the three priority levels;
however, only 26, or 9%, were within Level 1, and 122, or 44%, were
within Level 2. These results do not show that 287(g) resources have been
focused on aliens who pose the greatest risk to the public.

ICE performance measures do not account for task force officer
investigations, prosecutions, or convictions. Information on task force
officers’ investigative work and subsequent criminal prosecutions is
maintained in TECS, the system ICE uses to track its investigations.
However, ICE has not established any TECS reporting requirements for
the program or used TECS information in any 287(g) program
performance measures.

With no specific target levels for arrest, detention, and removal priority
levels, and with performance measures that do not account for all
investigative work and criminal prosecutions, ICE cannot be assured that
the 287(g) program is meeting its intended purpose, or that resources are
being appropriately targeted toward aliens who pose the greatest risk to
public safety and the community.

Recommendations
       We recommend that the Assistant Secretary for Immigration and
       Customs Enforcement:

       Recommendation #1: Establish a process to collect and maintain
       arrest, detention, and removal data for aliens in each priority level
       for use in determining the success of ICE’s focus on aliens who
       pose the greatest risk to public safety and the community.

       Recommendation #2: Develop procedures to ensure that 287(g)
       resources are allocated according to ICE’s priority framework.

       Recommendation #3: Establish and implement TECS data entry
       requirements that reflect investigative efforts and related
       prosecutions associated with the 287(g) program.



              The Performance of 287(g) Agreements

                            Page 9
ICE Needs to Establish Guidance for Supervising 287(g) Officers
and Activities
     The Government Accountability Office’s (GAO) “Standards for Internal
     Control in the Federal Government” emphasize the need for good human
     capital policies and practices, including proper supervision. 287(g)
     agreements specify that ICE personnel will supervise and direct
     immigration enforcement activities conducted by LEA officers. However,
     we observed inconsistencies in the level and type of supervision over 287(g)
     program officers and related activities in participating jurisdictions. This
     inconsistency could jeopardize the integrity of the 287(g) program and its
     ability to perform immigration enforcement activities appropriately.

            Field Office Staffing Plans Need to Incorporate 287(g)
            Supervisory Responsibilities

            ICE field offices are responsible for supervising and directing
            287(g) program activities, as well as ongoing activities in other
            ICE-directed programs. ICE has developed field office staffing
            plans for DRO and OI that reflect desired supervisory staffing
            ratios. However, the number of 287(g) officers supervised is not
            considered in field office staffing templates.

            ICE field office staffing templates establish a maximum employee-
            to-supervisor ratio of nine to one. The templates were developed
            for ICE supervisors to ensure adequate supervision and support of
            ICE employees. A similar staffing template that excludes
            administrative tasks should be designed to account for the added
            responsibilities that ICE field offices undertake in supervising
            287(g) officers.

            ICE supervisors with additional responsibility for 287(g) officers
            often maintained actual staffing levels in excess of staffing
            template recommendations. At one site we visited, an ICE
            supervisor was responsible for three ICE employees and nineteen
            287(g) officers. At another location, an ICE supervisor was
            responsible for two ICE employees and eighty 287(g) officers.

            In several locations, ICE supervisors are responsible for providing
            oversight for both 287(g) activities and other ICE programs. For
            example, in DRO field offices with the Criminal Alien Program or
            Secure Communities, many of the supervisors overseeing these
            programs also supervise 287(g) program activities as a collateral
            duty.



                   The Performance of 287(g) Agreements

                                 Page 10
    ICE managers in three field offices advised us that imbalances in
    supervisory staffing ratios can be attributed, in part, to 287(g)
    agreements being approved without field office requests for
    additional supervisory staff being filled.

    ICE supervisors have frequently delegated day-to-day direction of
    287(g) program activities to nonsupervisory ICE subordinates. At
    six of the seven sites we visited, we identified 287(g) officers who
    received guidance from nonsupervisory special agents and IEAs.
    These ICE agents said that they did not receive recognition, pay, or
    training for these additional duties.

    287(g) officers advised us that nonsupervisory ICE personnel who
    provide day-to-day guidance did not have the technical knowledge
    to serve in this capacity. 287(g) officers indicated that they
    received contradictory guidance from different ICE personnel, and
    were not able to obtain definitive instructions. They explained that
    this situation has resulted in uncertainties about the quality of their
    work and has hampered their productivity.

    ICE’s approach to 287(g) supervisory staffing has not consistently
    resulted in effective program supervision. To ensure that 287(g)
    activities are carried out in accordance with the MOA and other
    applicable guidance, ICE needs to implement a structure that
    ensures sufficient supervision of all 287(g) officers and related
    immigration enforcement activities. This issue should be
    addressed prior to any expansion of the 287(g) program.

Recommendations
    We recommend the Assistant Secretary for Immigrations and
    Customs Enforcement:

    Recommendation #4: Establish a process to ensure effective
    supervision of 287(g) officers and immigration enforcement
    operations.

    Recommendation #5: Develop controls to ensure that supervisory
    responsibilities for 287(g) supervisors are considered when
    determining staffing ratios in ICE field offices.

    Recommendation #6: Ensure that 287(g) supervision is provided
    by authorized staff with the appropriate knowledge, skills, and
    abilities.



           The Performance of 287(g) Agreements

                         Page 11
ICE Needs to Ensure Consistency in 287(g) Supervision

We identified a pattern of inconsistencies in ICE supervisory
practices regarding (1) the frequency and type of contact between
287(g) officers and ICE agents, (2) ICE participation and oversight
responsibilities in community-based federal immigration
enforcement operations, and (3) feedback on the performance of
287(g) officers.

Communications Between ICE Supervisors and 287(g) Officers

Communications between ICE supervisors and 287(g) officers
varied widely. We noted levels of communication between ICE
supervisors and agents and 287(g) officers that ranged from daily
interaction to no contact at all. At some locations, ICE supervisors
and agents interact daily with 287(g) officers. At one location,
however, ICE agents responsible for supervising the 287(g)
program acknowledged that they had no direct contact with dozens
of 287(g) officers within their jurisdiction.

ICE agents who are co-located with the 287(g) officers they
supervise have frequent face-to-face contact. ICE agents who
supervise 287(g) operations from offsite locations rely on
telephonic and electronic communications to provide guidance to
officers. ICE agents from one field office reported visiting a
remote program site they are responsible for only once a month,
and said that they focus on reviewing 287(g) officer data entries to
determine whether additional guidance is needed.

Community-Based Immigration Enforcement Operations

Variations in supervisory approaches are also evident in ICE
agents’ participation in 287(g) community-based immigration
enforcement operations. At some locations, ICE agents were
present for all TFO activities that could result in an arrest.
However, at other locations, ICE agents were rarely present when
TFOs arrested suspected aliens under 287(g) authority.

In some locations, ICE supervisors required TFOs to prepare
operational plans for field activities and submit them to ICE for
review and approval prior to implementation. At another program
site, ICE did not require TFOs to provide operational plans even
for large-scale undertakings; however, LEA representatives at this
location provided ICE with operational plans as a courtesy.


      The Performance of 287(g) Agreements

                    Page 12
    Because 287(g) officers also enforce state and local laws, ICE
    supervisors must decide when it is necessary to supervise their
    activities. For example, one LEA advised ICE that its crime sweep
    operations were predicated under state law. Therefore, ICE agents
    decided that they did not need to be present for these operations or
    approve related operational plans. However, our review of data on
    nine crime sweeps conducted by this LEA showed that more than
    half of the arrests during two sweeps were based strictly on federal
    immigration violations. In addition, more than half the arrests for
    all nine crime sweep operations resulted in federal immigration
    charges.

    To date, ICE has not issued guidance clarifying field office
    responsibilities concerning their participation in LEA field
    operations or approval of operational plans for immigration
    enforcement activities.

    Supervisory Feedback on 287(g) Officer Performance

    ICE supervisory practices related to 287(g) officer performance
    feedback also varied among sites. ICE agents at some locations
    provided formal feedback for LEA supervisors to use in preparing
    overall performance appraisals for 287(g) officers. In other
    locations, ICE agents provided performance feedback to 287(g)
    officers’ LEA supervisors informally. This feedback is almost
    always oral. At one site, ICE agents provided oral performance
    feedback directly to 287(g) officers, but not to their LEA
    supervisors.

    In the absence of consistent supervision over immigration
    enforcement activities performed by 287(g) jurisdictions, there is
    no assurance that the program is achieving program goals and
    operating in accordance with the MOA and other guidance.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #7: Develop and implement 287(g) field
    supervision guidance that includes, at a minimum (1) the frequency
    and type of contact required between 287(g) officers and ICE
    supervisors; (2) the preparation, review, and approval of operational
    plans for community-based immigration enforcement activities; and
    (3) performance feedback requirements for 287(g) officers.


          The Performance of 287(g) Agreements

                        Page 13
ICE Needs to Enhance 287(g) Program Oversight
     According to MOAs in place at the time of our fieldwork, ICE could
     provide program oversight through several methods, including conducting
     assessments of current MOAs and establishing local steering committees
     that review and assess immigration enforcement activities conducted by
     local LEAs. However, ICE has not used these methods effectively to
     enhance oversight of 287(g) operations and activities. As a result, ICE has
     limited its ability to ensure that local jurisdictions are conducting 287(g)
     activities as intended.

            A Comprehensive Review Process Is Needed to Assess Ongoing
            287(g) Agreements

            MOAs include language that allows either ICE or participating
            LEAs to terminate agreements at any time. However, ICE had not
            established a comprehensive process for assessing, modifying, and
            terminating current agreements.

            The MOAs between ICE and four of the jurisdictions we visited
            indicated that 287(g) authority was to be used in a task force
            setting only. However, each of these jurisdictions had also used
            287(g) authorities in jail settings for several years. In one of these
            locations, both ICE and LEA managers were aware of this
            discrepancy; however, ICE had not modified the MOA to reflect
            the program activity in effect, or required the LEA to amend its
            program to comply with the MOA. As of June 2009, ICE had
            terminated one agreement in response to a request from the
            participating LEA.

            The new MOA template ICE issued in July 2009 includes a
            requirement for ICE and the participating LEAs to review their
            agreements after 3 years to determine the need for modification,
            extension, or termination. During our fieldwork, ICE began
            preparing a draft directive for conducting these reviews. The draft
            includes a process for OSLC to determine the cost-effectiveness of
            the program and whether it continues to be in the best interest of
            ICE. However, it does not include the specific types of
            information that ICE should consider as part of this process.

            Key aspects related to an LEA’s 287(g) operation that are not
            included in the draft directive for reviewing MOAs include
            (1) current or previous concerns expressed by field office staff or
            by other DHS offices with relevant information about a particular
            jurisdiction; (2) media attention or community concerns that
            contribute to adverse conclusions about the 287(g) program; (3)

                   The Performance of 287(g) Agreements

                                 Page 14
    lawsuits or complaints; (4) potential civil rights and civil liberties
    violations; and (5) ICE’s ability to provide effective supervision
    and oversight. These areas should be assessed as situations
    warrant. Such reviews could occur outside the 3-year review cycle
    outlined in the MOA template.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #8: Establish and implement a comprehensive
    process for conducting periodic reviews, as well as reviews on an
    as-needed basis, to determine whether to modify, extend, or
    terminate 287(g) agreements. At a minimum, this process should
    include an assessment of (1) current or previous concerns
    expressed by field office staff; (2) media attention or community
    concerns that contribute to negative or inappropriate conclusions
    about the 287(g) program; (3) lawsuits or complaints; (4) potential
    civil rights and civil liberties violations; and (5) ICE’s ability to
    provide effective supervision and oversight.

    Steering Committees Have Not Been Used to Assess
    Immigration Enforcement Activities

    Prior to July 2009, MOAs between ICE and 287(g) LEAs required
    a steering committee to review and assess immigration
    enforcement activities, with a focus on ensuring compliance with
    MOAs. However, few program sites have established steering
    committees. Only one of the seven jurisdictions we visited had a
    steering committee that met on a regular basis. ICE’s Office of
    Professional Responsibility (OPR) identified only one active
    steering committee at eight other program sites in its reports of
    inspections conducted from May 2008 to March 2009.

    At a minimum, committee membership was to include the heads of
    the LEA and the ICE field office that supervises participating
    officers. However, past MOAs did not specifically require
    participation from community stakeholders or experts to provide
    advice and guidance on the direction of the program. Several
    community and nongovernmental organization (NGO)
    representatives said that it would be valuable to have community
    perspectives represented in these forums, and that external
    stakeholder involvement would increase transparency and
    accountability.


           The Performance of 287(g) Agreements

                         Page 15
    The revised MOA template released in July 2009 eliminated the
    requirement for steering committees. ICE officials determined that
    there was no need for formal committee meetings since LEA and
    ICE representatives generally communicate on a regular basis to
    address program issues.

    Steering committees served as the sole oversight bodies described
    in 287(g) agreements with a focus on ensuring compliance with the
    MOAs at the local level. Steering committees should not be
    narrowly viewed as a means to enhance ICE and LEA
    communications, but as a way to (1) improve program oversight
    and direction, (2) identify issues and concerns regarding
    immigration enforcement activities, (3) increase transparency, and
    (4) offer stakeholders opportunities to communicate community-
    level perspectives. By eliminating the requirement for steering
    committees and not fostering participation by community
    stakeholders, ICE reduces its ability to gain an independent
    perspective on 287(g) operations.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #9: Require 287(g) program sites to maintain
    steering committees with external stakeholders, with a focus on
    ensuring compliance with the MOA.

    Suitability Reviews Have Not Been Performed Consistently

    MOAs in effect at the time of our fieldwork required state and
    local law enforcement officers nominated for the 287(g) program
    to be able to qualify for appropriate federal security clearances.
    ICE procedures require that all 287(g) officers be vetted before
    they are authorized to perform immigration enforcement functions
    or provided access to DHS systems. However, ICE had not
    established a system to ensure that suitability reviews were
    conducted for all 287(g) officers.

    OPR may determine that a 287(g) officer candidate is unsuitable
    based on an indication of misconduct or negligence in
    employment, criminal or dishonest conduct, or intentional false
    statements. Other findings that may warrant an unsuitable
    determination include deception or fraud, refusal to furnish
    testimony, alcohol abuse, use of illegal or controlled substances,
    knowing or willful engagement in acts designed to overthrow the

          The Performance of 287(g) Agreements

                        Page 16
government, or any statutory or regulatory bar from accessing ICE
systems.

From the initiation of the 287(g) program through 2007, ICE OI
determined officers’ suitability for immigration enforcement
functions on an informal basis. ICE OI did not maintain records
documenting the process or outcome of 287(g) officers’ suitability
reviews.

In May 2007, when ICE OPR assumed responsibility from OI for
ensuring that suitability requirements were met, it was unable to
confirm the suitability status of 287(g) officers who were active at
that time. Therefore, an OPR representative reported to us that it
vetted all 287(g) officers again as a precaution to ensure their
suitability for performing federal immigration enforcement
activities. However, OPR did not have documentation that showed
it had vetted all 287(g) officers, even though ICE granted them
287(g) authorities and provided access to DHS information
systems.

OSLC maintains records and monitors 287(g) officers’ program
and training status. We reviewed OSLC and OPR records to
identify instances where suitability determinations had not been
performed for current or former 287(g) officers. We compared
OSLC training records to OPR records for 287(g) officers who had
received positive suitability determinations, and found that OSLC
records identified 57 officers for whom OPR had no record of a
suitability review. Of these, nine were active 287(g) officers. In
addition to these officers, OSLC records showed another officer as
active, even though OPR had not completed the officer’s suitability
review.

OCIO maintains records on 287(g) officers’ DHS information
system access and activity. We compared OCIO records to OPR
information to determine whether all 287(g) officers with access to
DHS information systems had undergone suitability reviews. One
287(g) officer had active DHS accounts even though OPR had
revoked his 287(g) officer status. Eight other 287(g) officers for
whom OPR had not completed a suitability review had access to
DHS systems. One of these 287(g) officers was actively using his
account.

ICE cannot ensure that 287(g) officers meet the appropriate
qualifications to perform immigration enforcement duties without
effective controls to ensure that officers are properly vetted. ICE’s
current vetting practices expose DHS information systems to

      The Performance of 287(g) Agreements

                    Page 17
    increased risk of data integrity issues and inappropriate or
    unauthorized access.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #10: Establish a process to periodically cross­
    check OPR, OSLC, and OCIO records to confirm 287(g) officers’
    eligibility and suitability to exercise authorities granted under
    287(g) MOAs.

    Guidelines for Handling Complaints and Allegations Against
    287(g) Officers Need to Be Developed

    ICE field offices are responsible for monitoring all 287(g) officers
    under their supervision to determine whether they have engaged in
    conduct that would make them unsuitable to continue in a federal
    immigration enforcement capacity. To assist in this effort, the July
    2009 MOA template requires LEAs to immediately notify ICE of
    any complaint or allegation filed against 287(g) personnel involving
    (1) violations of the MOA or (2) any actions that might result in
    employer discipline, a criminal investigation, or a civil lawsuit. In
    addition, it requires LEAs to report complaints received regarding
    non-287(g) personnel performing federal immigration functions.
    However, ICE OPR agents and LEA internal investigation
    representatives whom we interviewed were either not aware of this
    requirement or did not have a clear understanding of their respective
    roles in the process.

    ICE can suspend or revoke an officer’s 287(g) authority if the
    officer (1) performs immigration enforcement activities that are not
    within the scope of the MOA or (2) uses immigration enforcement
    authority in a way that could reflect negatively on ICE or create an
    appearance of impropriety or a conflict of interest. LEA internal
    investigations units are responsible for investigating related
    allegations and information and reporting them to ICE field offices
    and OPR. However, ICE has not provided guidance on how
    information about allegations, complaints, and other indications of
    misconduct should be reported, maintained, or used as part of the
    suitability determination process. In addition, information
    regarding complaints, allegations, or the results of LEA
    investigations is not used as part of the recertification process.



          The Performance of 287(g) Agreements

                        Page 18
    At the time of our fieldwork, ICE did not retain information
    regarding allegations and investigations of 287(g) personnel or
    non-287(g) personnel exercising federal immigration authorities in
    violation of MOAs. Such data should be maintained and used as
    part of a continuing process to ensure adequate oversight of
    officers performing immigration enforcement activities.

Recommendations
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #11: Establish a process to ensure that LEAs
    report to OPR any allegations or complaints against 287(g) officers
    and other LEA personnel alleged to have improperly performed
    immigration enforcement activities, as well as the results of any
    subsequent investigations.

    Recommendation #12: Establish and implement procedures on
    how the results of complaints, allegations, and subsequent
    investigations against LEA personnel conducting immigration
    enforcement activities should be maintained and used as part of the
    suitability and recertification processes.

    ICE Needs to Ensure Proper Guidance and Supervision for
    Variations Within the Jail Enforcement and Task Force
    Program Models

    The 287(g) program incorporates both a jail enforcement and a
    task force program model. ICE has used these models as the basis
    for delegating specific authorities to participating officers and
    developing model-specific program requirements that incorporate
    qualification standards and supervision requirements.

    Distinctions between these two program models are outlined in the
    revised MOA template released in July 2009. According to these
    revisions, TFOs are authorized to perform immigration functions
    that differ from those allowed for JEOs. TFOs are also subject to
    different selection and supervision requirements. These
    distinctions are appropriate because of the differences in operating
    environments, but do not take into consideration the wide
    variations that exist within each program model as part of daily
    field operations.

    During our fieldwork, we noted operational differences within the
    same program model as implemented by various LEAs. However,

          The Performance of 287(g) Agreements 


                        Page 19 

ICE guidance for each program model does not take into
consideration the different levels of guidance or supervision that
may be required to monitor immigration enforcement activities
associated with each variation.

Jail Enforcement Model

During our site visits, we noted that jurisdictions operating under
the jail enforcement model screen significantly different
populations. For example, four jurisdictions screen only convicted
criminals for immigration status and removability. The remaining
jurisdictions screen the immigration status of all individuals
detained in their facilities. These differences in jail model
approaches may justify different operating protocols and
requirements to address differences in risk.

Task Force Model

Task force model operations vary more widely than jail
enforcement operations. Some task force programs are structured
around a task force with an ICE-led hierarchy, with a specific
criminal investigative focus. Other task force operations include
287(g) investigators directed by LEA managers with a primary
focus on violations of state laws such as identity theft and identity
fraud, for which access to immigration information is beneficial.
Still other task force operations include 287(g) officers in patrol
vehicles who use immigration authorities following traffic stops or
domestic violence issues. Each of these operations is associated
with different levels of vulnerability to civil rights or MOA
violations that may require distinct approaches to supervision.

Based on the risks of civil rights violations or other actions not in
compliance with the MOA, different jurisdictions’ approaches to
carrying out immigration enforcement activities may require
different levels of supervision and guidance. To ensure the
effectiveness of each task force operation, ICE needs to establish
corresponding instructions and protocols and provide appropriate
levels of supervision.




       The Performance of 287(g) Agreements 


                     Page 20 

                 Recommendation
                          We recommend that the Assistant Secretary for Immigration and
                          Customs Enforcement:

                          Recommendation #13: Establish specific operating protocols and
                          requirements for operational variances identified in task force and
                          jail enforcement program models.

                          More Frequent Inspections of 287(g) Program Sites Could
                          Improve Overall Program Operations

                          ICE OPR began conducting field inspections of 287(g) programs
                          in 2008, and was appropriated funds for this purpose in FY 2009.7
                          OPR performs inspections to assess ICE field office effectiveness
                          in supervising and supporting 287(g) programs, and ICE and LEA
                          compliance with ICE policies and the terms of the MOAs.

                          As of September 2009, OPR had completed twenty-four 287(g)
                          field inspections and 13 inspection reports. OPR inspections have
                          identified program activities that were not in compliance with
                          MOAs, and recommended appropriate corrective actions. These
                          reports have also highlighted significant program issues and
                          concerns, including credentialing and IT deficiencies, and
                          inconsistencies in data entry and collection.

                          In March 2009, OSLC formalized its process for addressing OPR
                          recommendations by instituting semiannual reporting on the
                          progress of corrective actions until the recommendations are
                          closed. Continuing management attention to OPR inspection
                          results may help ensure that program activities are in compliance
                          with the MOAs, and assist ICE in refining program activities and
                          guidance.

                          At current staffing levels, OPR plans to inspect 287(g) program
                          sites once every 3 to 4 years. Given the sensitive nature of the
                          287(g) program and OPR’s success in identifying issues for
                          management attention, ICE should consider inspecting program
                          sites more frequently to provide increased oversight. A more
                          aggressive inspection process may require a corresponding
                          increase in inspection staffing levels.



7
 See the Explanatory Statement associated with Consolidated Security, Disaster Assistance, and
Continuing Appropriations Act of 2009 (P.L. 110-329), Div. D, Title II, p. 636.

                                  The Performance of 287(g) Agreements

                                                Page 21
                    Recommendation
                              We recommend that the Assistant Secretary for Immigration and
                              Customs Enforcement:

                              Recommendation #14: Study the feasibility and appropriateness
                              of increasing the frequency of OPR 287(g) inspections, and report
                              findings to the OIG.

           Application Review and Selection Process Needs to Be Enhanced
                    The current process for reviewing applications for 287(g) program
                    participation does not include an appropriate level of emphasis on civil
                    rights issues. In addition, data from ICE field offices responsible for
                    supervising approved 287(g) programs are not always properly considered
                    in the decision regarding a jurisdiction’s approval for participation.
                    Because of the sensitivity of civil rights issues and the need for
                    appropriate supervision of 287(g) officers, ICE must ensure that civil
                    liberties concerns and the ability to provide adequate supervision are
                    included in the selection process.

                              Civil Rights and Civil Liberties Considerations Are Not
                              Consistently Weighed in the 287(g) Application Review and
                              Selection Process

                              One aspect of DHS’ primary mission is to ensure that civil rights
                              and civil liberties are not diminished by its efforts, activities and
                              programs aimed at securing the homeland.8 In its draft strategic
                              plan, OSLC states that it seeks to build trusting partnerships with
                              communities to further enforcement of federal immigration laws.
                              This can be achieved, in part, through mutual respect for and
                              recognition of civil rights and civil liberties. Therefore, the
                              potential effects of a 287(g) agreement on a community’s civil
                              rights and civil liberties should be part of the application process.

                              OSLC explained that a jurisdiction’s civil rights and civil liberties
                              history has been a consideration in past site selection efforts.
                              However, an emphasis on civil rights and civil liberties was not
                              formally included in the 287(g) application, review, and selection
                              process, or in draft procedures for modifying, extending, or
                              terminating existing MOAs. 287(g) applications do not include
                              information concerning civil rights complaints, lawsuits, or consent
                              decrees that applicant jurisdictions are subject to, or other
                              information that may be useful in assessing the civil rights and civil

8
    6 U.S.C. 111 (b)(1)(G).

                                     The Performance of 287(g) Agreements

                                                   Page 22
                        liberties standing of the applicant. In 2009, OSLC increased the
                        number of ICE offices that participate in the selection process;
                        however, none of these offices are responsible for assessing civil
                        rights and civil liberties issues.

                        In a January 2009 report, GAO disclosed that more than half of the
                        twenty-nine 287(g) LEAs it contacted during its audit reported that
                        community members in their jurisdictions expressed concerns that
                        the use of 287(g) authority would lead to racial profiling and
                        intimidation by law enforcement officials.9 NGOs critical of the
                        287(g) program have charged that ICE entered into agreements
                        with LEAs that have checkered civil rights records, and that by
                        doing so, ICE has increased the likelihood of racial profiling and
                        other civil rights violations.

                        Claims of civil rights violations have surfaced in connection with
                        several LEAs participating in the program. Two LEAs currently
                        enrolled in the program were defendants in past racial profiling
                        lawsuits that they settled by agreeing to collect extensive data on
                        their officers’ contacts with the public during traffic stops, and
                        adopt policies to protect the community against future racial
                        profiling. Another jurisdiction is the subject of (1) an ongoing
                        racial profiling lawsuit related to 287(g) program activities; (2) a
                        lawsuit alleging physical abuse of a detained alien; and (3) a DOJ
                        investigation into alleged discriminatory police practices,
                        unconstitutional searches and seizures, and national origin
                        discrimination. DHS is a defendant in a lawsuit regarding the
                        allegedly improper detention and deportation of a U.S. citizen by a
                        287(g) officer from yet another participating LEA. A
                        determination in these lawsuits has not been made.

                        Several 287(g) program observers have suggested that ICE should
                        closely review jurisdictions with a history of racial profiling before
                        allowing them to enter into 287(g) agreements. Some NGOs assert
                        that 287(g) authority should be revoked from certain LEAs
                        currently participating in the program on the basis of civil rights
                        and civil liberties violations.

                        To address these issues, ICE needs to direct increased attention to
                        the civil rights and civil liberties records of current and prospective
                        287(g) jurisdictions. We recognize the difficulties involved in
                        assessing a jurisdiction’s past performance in this regard and
                        forecasting future vulnerability to civil rights abuses. Nevertheless,

9
 GAO, Immigration Enforcement — Better Controls Needed over Program Authorizing State and Local
Enforcement of Federal Immigration Laws (GAO-09-109), January 30, 2009, preface.

                               The Performance of 287(g) Agreements

                                             Page 23
                          ICE must include consideration of civil rights and civil liberties
                          factors in the site selection and MOA review processes.

                 Recommendations
                          We recommend that the Assistant Secretary for Immigration and
                          Customs Enforcement:

                          Recommendation #15: Require 287(g) applicants to provide
                          information about past and pending civil rights allegations, and
                          incorporate a civil rights and civil liberties review as part of the
                          documented 287(g) site selection and MOA review processes.

                          Recommendation #16: Include a representative on the advisory
                          committee to provide insights into civil rights and civil liberties
                          issues as part of the approval process.

                          Data from ICE Field Offices Need to Be Fully Evaluated
                          During the 287(g) Application Review and Selection Process

                          Recently, ICE has taken steps to enhance its initial application
                          review process for prospective 287(g) LEAs (see appendix C).
                          ICE officials stated that 287(g) applicants are assessed to
                          determine whether other programs and assistance offered under the
                          ICE Agreements of Cooperation in Communities to Enhance
                          Safety and Security (ACCESS) program better meet their needs.10

                          As of June 2009, ICE had approved 66 of 117 applications for
                          participation in the 287(g) program.11 As of July 2009, ICE had
                          not approved or denied any 287(g) applications during FY 2009
                          pending the issuance of a new MOA template.

                          OSLC reports that it relies on OI and DRO field offices to help
                          identify the best-fit ACCESS partnership options for interested
                          jurisdictions. OSLC staff reported that ICE field offices expressed
                          concerns about 69 LEA applications for 287(g) authority and
                          recommended that these applications not be approved. ICE denied
                          applications for 53 of these 69 applications, but approved the
                          remaining 16 despite objections from the field units responsible for
                          providing direct program supervision.



10
  Refer to appendix D for a complete list of ICE ACCESS programs and services. 

11
  The Immigration and Naturalization Service approved one application for a 287(g) program before ICE 

was established. As of July 2009, one agreement that ICE signed after approving a 287(g) application had 

since been terminated. 


                                  The Performance of 287(g) Agreements

                                                 Page 24
            In several other cases, ICE field offices supported approving
            287(g) applications only under certain conditions, such as an
            increase in staff to ensure adequate supervision of 287(g) officers.
            However, ICE approved some of these applications without
            satisfying these field office conditions. As a result, field offices
            did not have the staff that they deemed appropriate to provide
            sufficient support and supervision.

            ICE cited a number of reasons for denying 287(g) applications, and
            sometimes indicated multiple reasons for denying individual
            applications. According to OSLC information, the need for more
            field staff for supervision factored into the decision to deny more
            than half of the 51 applications disapproved. ICE denied about a
            quarter of applications, in part, because of insufficient ICE funding
            for either 287(g) officer training or IT requirements. ICE denied
            other applications because it determined the jurisdiction had a
            limited need for the program or believed its needs could be met by
            other ICE programs and services. In other cases, ICE denied
            applications because of limitations in detention space to house
            aliens who could be identified through the prospective 287(g)
            program. Some jurisdictions reconsidered or withdrew their
            applications.

            Because of the need to provide sufficient oversight to ensure that
            287(g) officers properly carry out immigration enforcement
            activities, ICE needs to make certain that input from ICE field
            offices is fully considered and evaluated during the application
            review and selection process.

     Recommendation
            We recommend that the Assistant Secretary for Immigration and
            Customs Enforcement:

            Recommendation #17: Develop a process to ensure that
            information submitted from ICE field offices as part of the
            application review process is fully taken into consideration before
            a final decision is made. This recommendation should include
            provisional approvals that require resource considerations to
            ensure proper supervision and oversight.

ICE Needs to Establish 287(g) Data Collection and Reporting
Requirements to Address Civil Rights Issues
     GAO’s “Standards for Internal Control in the Federal Government”
     recognize the need for program managers to have data to determine
                  The Performance of 287(g) Agreements

                                Page 25
whether they are meeting their agencies’ goals. Although 287(g) MOAs
include basic guidelines for data collection and reporting, they do not
require ICE or LEAs to collect information that would assist in addressing
allegations of civil rights violations within 287(g) programs.

To address concerns regarding arrests of individuals for minor offenses
being used as a guise to initiate removal proceedings, DHS officials said
that the MOA requires participating LEAs to pursue all criminal charges
that originally caused an individual’s arrest. However, ICE does not
require LEAs to collect and report on the prosecutorial or judicial
disposition of the initial arrests that led to aliens’ subsequent immigration
processing under the 287(g) program. This information could help to
establish how local prosecutors and judges regarded an officer’s original
basis for arresting aliens. Without this type of information, ICE cannot be
assured that law enforcement officers are not making inappropriate arrests
to subject suspected aliens to vetting by 287(g) officers for possible
removal.

In one facility that screens all individuals detained, an ICE supervisor
described a situation in which a state highway patrol officer transported an
accident victim to a participating county jail to determine the victim’s
immigration status. The ICE supervisor explained that the accident victim
was not brought to the jail to be charged with an offense, but to have a
287(g) officer determine the victim’s deportability. The victim was
detained until a 287(g) officer could respond.

To determine the potential for inappropriate 287(g)-related arrests and
detentions, we requested specific information on the prosecutorial
disposition of arrests from the seven jurisdictions in our review. However,
because ICE does not require participants to collect this information, only
four of the seven jurisdictions were able to provide us with prosecutorial
data. These jurisdictions provided data on 263 alien arrests for criminal
charges. Our analysis showed that authorities initiated the prosecution of
260 of 263, or 99%, of the aliens arrested for criminal charges. While
these data indicate that prosecutors have pursued charges for 287(g)­
related arrests, it does not provide confirmation that civil rights violations
have not occurred.

ICE does not collect other information that could assist in determining
whether civil rights violations have occurred. Information that would be
useful in assessing whether unlawful profiling has occurred include: (1)
the basis for and circumstances surrounding TFO stops, searches, and
arrests, and (2) information on the race and ethnicity of individuals
stopped, searched, and arrested by TFOs.



              The Performance of 287(g) Agreements

                            Page 26
     ICE should consider requiring LEAs to maintain data regarding (1) the
     circumstances and basis for TFO contacts with the public, (2) the race and
     ethnicity of those contacted and arrested, and (3) the prosecutorial and
     judicial disposition of 287(g) arrests.

     Recommendation
            We recommend that the Assistant Secretary for Immigration and
            Customs Enforcement:

            Recommendation #18: Establish collection and reporting
            standards that provide objective data to increase monitoring of
            methods participating jurisdictions use in carrying out 287(g)
            functions, and their effect on civil liberties. Collection and
            reporting requirements could include (1) the circumstances and
            basis for TFO contacts with the public, (2) the race and ethnicity of
            those contacted, and (3) the prosecutorial and judicial disposition
            of 287(g) arrests.

287(g) Training Does Not Fully Prepare Officers for Immigration
Enforcement Duties
     GAO’s “Standards for Internal Control in the Federal Government”
     emphasize management’s commitment to competence. This guidance
     states that all personnel need to possess and maintain a level of
     competence that allows them to accomplish their assigned duties. It also
     states that management should identify knowledge and skills needed for
     jobs, and provide necessary training.

     LEAs serving as 287(g) officers must maintain broad-based knowledge of
     their role and the constraints on methods of enforcement in a legal and
     institutional system that operates differently from local criminal justice
     systems. State and local enforcement of federal immigration law must
     account for local, state, and federal laws that govern the rights of
     community residents and the obligations of localities. Our analysis of the
     training provided to new 287(g) officers identified several areas that need
     to be enhanced to ensure that 287(g) officers have the skills to carry out
     their immigration enforcement functions effectively.

            287(g) Basic Training Does Not Satisfy MOA Requirements

            287(g) MOAs require participating officers to pass examinations
            equivalent to those given to ICE officers before they can use
            federal immigration enforcement authorities. To assess
            compliance with this requirement, we compared examinations
            administered to 287(g) officers with those given to ICE IEAs who
                   The Performance of 287(g) Agreements

                                 Page 27
perform similar functions. Examinations given to 287(g) officers
during basic training are comparable in length, complexity, and
subject matter to those taken by entry-level IEAs, and require the
same 70% passing score, with a single retest opportunity.

The MOAs require basic training on 10 subjects:

   �	   Terms and limitations of the MOA
   �	   Scope of immigration officer authority
   �	   Relevant immigration law
   �	   ICE Use of Force Policy
   �	   Civil rights laws
   �	   Department of Justice “Guidance Regarding the Use of
        Race by Federal Law Enforcement Agencies”
   �	   Public outreach and complaint procedures
   �	   Liability issues
   �	   Cross-cultural issues
   �	   Obligations under federal law and the Vienna Convention
        on Consular Relations to make proper notification upon the
        arrest or detention of a foreign national

For seven of the subjects, the course content and length are either
comparable to or exceed related training provided to IEAs.
However, the curriculum provides limited coverage of three topics:
civil rights law; the terms and limitations of the MOA; and public
outreach and complaint procedures.

Training on Civil Rights Law

New 287(g) officers receive a brief training block on civil rights
law. The lecture covers the authorities and duties of law
enforcement officers; search, seizures, and rights; the Fourth
amendment; and, due process requirements for aliens and other
persons encountered during immigration enforcement activities. In
contrast, entry-level IEAs receive an additional 20 hours of
instruction on the Fourth Amendment and its protections related to
stops, searches, seizures, and arrests.

Some 287(g) jurisdictions require their officers to take annual
courses on civil rights and civil liberties protections. Moreover,
state and local LEAs require their sworn officers with arrest
authority to attend and graduate from certified law enforcement
academies that provide some instruction on civil rights law. There
are no national requirements, however, on the length of instruction
law enforcement academies are to provide in this area. Some law

        The Performance of 287(g) Agreements

                      Page 28
    enforcement academies devote as much as 24 hours of instruction
    on Fourth Amendment protections, while others set aside 4 hours
    of training for this area.

    287(g) officers exercise their authorities in community settings and
    need a thorough understanding of Fourth Amendment protections,
    including when it is appropriate to consider race or national origin
    when making a stop or determining whether to question an
    individual. In some cases, TFOs have received instruction on
    Fourth Amendment protections in law enforcement academies.
    However, there are no national requirements regarding the length
    of instruction law enforcement academies are to provide on Fourth
    Amendment protections.

    Training on Terms and Limitations of the MOA and Public
    Outreach and Complaint Procedures

    The terms and limitations of the MOA and public outreach and
    complaint procedures are not sufficiently addressed in ICE’s basic
    training course. The course schedule shows that these subjects are
    to be presented in 1-hour training modules. However, 287(g)
    officers informed us that, despite its inclusion in the course
    schedule, ICE instructors have not consistently delivered the
    training module. Officers in several locations advised us that they
    did not receive instruction on the MOA or complaint process as
    part of the basic training course, and were unfamiliar with both. In
    addition, 287(g) officers are not tested on their understanding of
    these topics.

    Local immigration enforcement activities encompass complex laws
    in an evolving environment. As such, training is a critical factor in
    helping to ensure that (1) 287(g) officers exert immigration
    enforcement authorities in accordance with federal and local
    immigration laws, (2) exposure to civil rights violations is
    minimized, and (3) officers are familiar with the terms and
    limitations of the agreements under which they operate, as well as
    the process for reporting and addressing related complaints.

Recommendations
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #19: Determine whether the current timeframe
    for civil rights law training is adequate to achieve appropriate


          The Performance of 287(g) Agreements

                        Page 29
coverage, and modify timeframes and coverage as needed to
ensure that sufficient training is provided.

Recommendation #20: Ensure that 287(g) basic training includes
coverage of MOAs, and public outreach and complaint procedures.

Hands-On Training in Immigration Systems and Processing
Needs to Be Increased

287(g) officers need immigration processing knowledge and skills
in order to perform federal immigration enforcement functions.
However, ICE supervisors and 287(g) officers informed us that
basic training does not adequately prepare them for the practical
requirements of their work.

Processing an alien for removal requires broad-based knowledge of
immigration forms, systems, and processing methods, including
the following:

   �	 Requesting, creating, and organizing Alien files (A-files),
      which represent the physical record of all immigration-
      related documents for noncitizens
   �	 Interpreting documents in the files
   �	 Navigating and operating immigration electronic
      information systems (i.e., Automated Biometric
      Identification System (IDENT) and Enforcement Case
      Tracking System (ENFORCE))
   �	 Preparing alien processing forms, including the Record of
      Deportable Alien, Form I-213

The basic training program for 287(g) officers provides 29 hours of
instruction on A-file review, IDENT and ENFORCE processing,
and I-213 preparation. By contrast, new ICE officers performing
immigration enforcement functions receive 41 hours of training on
immigration processing.

Some 287(g) officers reported that they did not receive hands-on
training on ENFORCE during basic training, and that training did
not prepare them to process cases independently. One 287(g)
officer commented that after basic training, he came away with
zero knowledge of how to process a case. An ICE supervisor
explained that after completing basic training, 287(g) officers had
no idea of how to create or process A-files.

Several 287(g) officers reported that they do not process aliens in
their custody because of insufficient confidence in their knowledge

      The Performance of 287(g) Agreements

                    Page 30
                              of ENFORCE. Therefore, after taking an undocumented alien into
                              custody, they request assistance from DRO for ENFORCE
                              processing. Requiring ICE officers to perform this function
                              reduces the effectiveness of 287(g) officers as a force multiplier.

                              At the end of our fieldwork, ICE initiated efforts to address
                              reported immigration processing issues through refresher training
                              on ENFORCE at specific locations on an as-needed basis. Since
                              we observed a widespread need for increased immigration
                              processing knowledge, a more methodical approach is warranted to
                              ensure that all 287(g) officers are properly trained.

                     Recommendation
                              We recommend that the Assistant Secretary for Immigration and
                              Customs Enforcement:

                              Recommendation #21: Enhance the current 287(g) training
                              program to provide comprehensive coverage of immigration
                              systems and processing. At a minimum, this should include hands-
                              on experience during the 287(g) basic training course, on-the-job
                              training, and periodic refresher training.

                              Knowledge of Immigration Benefits and Protections Needs to
                              Be Reinforced

                              To assess individuals’ immigration status and removability
                              properly, immigration officers must be familiar with (1) the asylum
                              process, (2) immigration benefits, and (3) victim and witness
                              protections. Accordingly, training in these areas is included in the
                              287(g) basic training objectives.

                              The 287(g) basic training course includes 2 hours of instruction on
                              special status immigrants and 2 hours on victim and witness
                              awareness. However, ICE does not instruct 287(g) officers on
                              significant immigration benefits, such as the Nicaraguan
                              Adjustment and Central American Relief Act12 and the American
                              Baptist Churches v. Thornburg Stipulated Settlement Agreement.13

                              Instructional design standards require the assessment of student
                              retention of information associated with identified training
                              objectives. However, as part of the four examinations
                              administered during the 287(g) basic training course, only three

12
     P.L. 105-100, Title II (codified as amended in scattered sections of title 8 of the U.S.C.)..
13
     760 F. Supp. 796 (N.D. Cal. Jan 31, 1991).

                                       The Performance of 287(g) Agreements

                                                       Page 31
                          questions relate to victim and witness protections and asylum. No
                          examination questions address the asylum process or immigration
                          benefits.

                          287(g) officers at several program sites were not knowledgeable
                          about the asylum process, immigration benefits, and victim and
                          witness protections. An appropriate level of knowledge in these
                          areas could minimize processing errors and reduce the risk of
                          wrongful detention and deportation. ICE needs to take measures to
                          increase competencies in these areas.

                 Recommendation
                          We recommend that the Assistant Secretary for Immigration and
                          Customs Enforcement:

                          Recommendation #22: Ensure that an appropriate level of
                          coverage on immigration benefits, asylum, and victim and witness
                          protections is included as part of the 287(g) basic training agenda.

                          287(g) Officers Did Not Consistently Complete Refresher
                          Training

                          In 2007, ICE identified annual online refresher training modules
                          for 287(g) officers to complete through its web-based Virtual
                          University. Officers are required to complete eight 287(g) training
                          modules, as well as three courses required for all ICE employees.14

                          While OSLC has directed that ICE field office staff ensure that
                          287(g) officers complete Virtual University refresher training
                          annually, we identified inconsistencies in compliance with this
                          directive. As of March 2009, 88% of active 287(g) officers who
                          were vetted by ICE prior to FY 2008 had not completed all
                          required refresher training. In addition, 76% of officers vetted
                          before FY 2008 had not completed 287(g) training offered through
                          Virtual University.

                          Several ICE program supervisors in field offices were not aware of
                          annual refresher training requirements. ICE supervisors who
                          manage 287(g) operations in five of the six jurisdictions we visited
                          were not knowledgeable of the requirements. In addition, one ICE

14
  287(g) officers must complete the following courses to meet ICE refresher training requirements:
Refresher Training Course Navigation, The Orantes Injunction, Consular Notification and Access, Board of
Immigration Appeals Decisions, Revised DHS / U.S. Citizenship and Immigration Services Documents,
Nonimmigrant Refresher Training, Electronic Sources of Information, Stop Trafficking Refresher Training,
Information Assurance Awareness Training, Records Management, and Prevention of Sexual Harassment.

                                 The Performance of 287(g) Agreements 


                                                Page 32 

    supervisor told us that he was unaware that Virtual University
    could be used for 287(g) training.

    In response to this issue, OSLC plans to formalize its refresher
    training guidance, and has developed a draft ICE directive on
    annual recertification of 287(g) officers that was under review by
    ICE headquarters at the time of our fieldwork. The draft directive
    states that 287(g) officers must recertify annually by successfully
    completing select Virtual University courses. The draft directive
    places responsibility on ICE field offices to notify OSLC when
    officers fail to complete recertification courses. OSLC is to review
    Virtual University administrative records and issue revocation
    notices for officers who do not complete required training.

    Because of the complexities of federal immigration law and its
    constantly changing environment, refresher training is critical in
    reinforcing immigration enforcement knowledge and providing
    legal and program updates. Therefore, ICE needs to increase its
    efforts to ensure that 287(g) officers maintain immigration skills
    and keep abreast of changes in immigration enforcement
    requirements.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #23: Establish and issue guidance to field
    office staff for 287(g) officer annual recertification training that
    emphasizes completion of online refresher training courses.

    Recommendation #24: Designate field office responsibilities for
    monitoring and enforcing compliance with training guidance to
    include, at a minimum, issuing and enforcing revocation notices
    for 287(g) officers who do not complete required training.

    The Use of Interpreters Is Inconsistent

    To complete processing and removal actions, immigration officers
    may need to communicate with aliens in languages other than
    English. Accordingly, ICE requires new DRO officers to establish
    Spanish-language proficiency or successfully complete a 5-week
    Spanish Language Training Program. By contrast, 287(g) officers
    do not receive language training or an assessment to determine
    their language competency.


           The Performance of 287(g) Agreements

                         Page 33
            MOAs in effect during our fieldwork required that participating
            LEA personnel provide an opportunity for subjects with limited
            English language proficiency to request an interpreter. However,
            ICE has not provided specific guidance on the circumstances in
            which 287(g) officers should proactively seek interpreter services.
            Therefore, the use of interpreters varies across program sites and
            among 287(g) officers. For example, officers without specific
            language skills often rely on officers with such skills for
            assistance, or call a language line that provides interpretation
            services telephonically. However, we spoke with officers who said
            287(g) officers with few or no foreign language skills have
            interviewed and processed non-English-speaking aliens without the
            aid of interpreters. One 287(g) officer said that he does not speak
            any Spanish, but used what is referred to as a “cheat sheet” of
            questions in Spanish to determine aliens’ removability during
            interviews. Another 287(g) officer admitted to being reluctant to
            speak Spanish due to his minimal grasp of the language, but served
            warrants and read non-English-speaking aliens their rights in
            Spanish.

            The absence of detailed guidance for using interpreter services can
            increase processing errors, as well as the potential for aliens to
            either be misunderstood or to misinterpret information provided
            during processing. To address these vulnerabilities, ICE needs to
            develop and implement clear guidelines describing the
            circumstances under which 287(g) officers should use interpreter
            support. These guidelines should also encompass foreign language
            skills assessments.

     Recommendation
            We recommend that the Assistant Secretary for Immigration and
            Customs Enforcement:

            Recommendation #25: Develop and implement clear guidelines
            for using interpreter support to assist with immigration duties and
            responsibilities.

ICE Needs to Increase the Availability and Accuracy of 287(g)
Program Information
     In a January 2009 memorandum to the heads of executive branch
     agencies, the President committed to disclose information rapidly in forms
     that the public can readily find and use. In addition, he wrote that
     executive departments and agencies should put information about their
     operations and decisions online and make it readily available to the
                   The Performance of 287(g) Agreements

                                 Page 34
                public.15 Consistent with these aims, one of OSLC’s primary goals is to
                build awareness and understanding of ICE ACCESS programs through
                communication and education of the media, NGOs, and the general public.
                However, at the time of our fieldwork, 287(g) information on the ICE
                public website consisted of brief fact sheets, testimony, and statements by
                ICE and DHS officials. In addition, information describing 287(g)
                operations to the public has included inaccuracies.

                        There Are Barriers to Obtaining 287(g) Program Information

                        The significant effect the 287(g) program can have on participants’
                        communities creates a need for community members to be well
                        informed about the program. However, community and NGO
                        representatives advised us that obtaining information about the
                        287(g) program is often a daunting task.

                        We obtained the following comments from community and NGO
                        representatives regarding access to 287(g) information:

                            �	 ICE had restricted the release of basic program materials,
                               including prior 287(g) MOAs.

                            �	 LEAs informed them that they could not respond to any
                               information requests because ICE has blocked the release
                               of program information.

                            �	 ICE has not been forthcoming with 287(g) program
                               information, such as program policies and statistics, unless
                               the NGOs filed a Freedom of Information Act request,
                               which can be time-consuming and costly to process.

                        ICE managers in the field and LEA officials agreed that ICE does
                        not do enough to disseminate program information to the public,
                        and described ICE outreach efforts as minimal. Some LEAs
                        reported difficulty obtaining program information from ICE.

                        ICE and NGO representatives explained how a local elected
                        official frequently tied remarks about the 287(g) program to
                        enforcement efforts executed under other authorities. They
                        expressed concerns that members of the public may develop false
                        impressions about the program as a result. One ICE manager in
                        the area said that by not disseminating more information to the

15
  President Barak Obama, Memorandum for the Heads of Executive Departments and Agencies,
“Transparency and Open Government,” January 21, 2009.
(http://www.whitehouse.gov/the_press_office/Transparency_and_Open_Government)

                               The Performance of 287(g) Agreements

                                             Page 35
                         public, ICE had effectively ceded the role of primary spokesperson
                         for the 287(g) program to this elected official, which was
                         counterproductive because of the inflammatory nature of these
                         statements.

                         ICE should increase efforts to ensure that the public is informed
                         about 287(g) program and ongoing operations. One method to
                         accomplish this is through improved access to and availability of
                         program information. ICE’s recent posting of the current 287(g)
                         MOAs on its public website represents a positive step in this
                         direction.

                 Recommendation
                         We recommend that the Assistant Secretary for Immigration and
                         Customs Enforcement:

                         Recommendation #26: Establish a process to provide the public
                         and other stakeholders with comprehensive information about the
                         287(g) program and associated operations.

                         ICE Needs to Improve the Accuracy of 287(g) Program
                         Information Provided to the Public

                         We identified ICE statements about the 287(g) program that did
                         not reflect actual program activities. Such information reduces
                         public awareness regarding 287(g) operations and activities.

                         ICE provided misleading information to the public in a September
                         2007 Fact Sheet. Information in this fact sheet included ICE’s
                         explanation that “The 287(g) program is not designed to allow
                         state and local agencies to perform random street operations. It is
                         not designed to impact issues such as excessive occupancy and day
                         laborer activities.”16 However, 287(g) officers have used their
                         authorities during large-scale street operations with the aim of
                         detaining individuals for minor offenses and violations of local
                         ordinances.

                         The fact sheet also explained that the program was “designed to
                         identify individuals for potential removal who pose a threat to
                         public safety as a result of an arrest and/or conviction for state
                         crimes.” The fact sheet added that “Police can only use 287(g)
                         authority when people are taken into custody as a result of

16
  ICE, ICE Fact Sheet: Delegation of Immigration Authority Section 287(g) Immigration and Nationality
Act, September 6, 2007.

                                 The Performance of 287(g) Agreements

                                               Page 36
                          violating state or local criminal law.”17 However, 287(g) officers
                          have apprehended aliens for federal immigration violations even
                          when the aliens had no prior arrests on state or local charges.

                          ICE has provided an incomplete picture of activities carried out
                          under the program’s task force model. According to ICE
                          testimony, 287(g) officers working under the task force model are
                          to assist ICE with long-term investigations and large-scale
                          enforcement activities.18 However, we identified task force
                          officers who focus exclusively on cases related to violations of
                          state laws and had never assisted ICE with long-term
                          investigations or large-scale enforcement activities.

                          The July 2009 MOA template for 287(g) activities indicates that
                          task force officers are to be assigned to task force operations
                          supported by ICE, and exercise their immigration-related
                          authorities during criminal investigations involving aliens.19
                          However, task force officers are not always part of a task force,
                          and many do not conduct criminal investigations. In several
                          program sites, 287(g) task force officers operate in separate patrol
                          vehicles and use their immigration authorities when they identify
                          possible removable aliens while performing their regular LEA
                          duties. These officers apply their 287(g) authorities following
                          traffic stops or domestic violence calls, rather than in the
                          furtherance of a specific ICE-directed criminal investigation, as
                          indicated by program materials.

                          To foster an environment of transparency and trust, ICE must
                          provide accurate information about the 287(g) program and related
                          operations. Doing so would promote greater awareness and
                          confidence as part of a comprehensive effort to broaden public
                          knowledge of immigration enforcement programs and related
                          efforts.

                 Recommendation
                          We recommend that the Assistant Secretary for Immigration and
                          Customs Enforcement:

                          Recommendation #27: Ensure the accuracy of information
                          disseminated to the public about the goals of the 287(g) program,

17
   Ibid. 

18
   Statement of William F. Riley, Acting OSLC Executive Director, before the U.S. House of 

Representatives Committee on Homeland Security, March 4, 2009, p. 3. 

19
   ICE, Revised MOA Template, July 2009, p. 19. 


                                  The Performance of 287(g) Agreements

                                                Page 37
    its various operations, and how immigration enforcement activities
    are carried out in the actual working environment.

    Inadequate Information Is Available on the Complaint Process

    A transparent complaint process is a way to ensure that a program
    is operating as intended. Since ICE has provided limited
    information about the 287(g) program, those who encounter 287(g)
    officers are not likely to recognize actions that violate the MOA.
    Moreover, because the only description of the complaint process in
    most jurisdictions is contained in the MOAs and because ICE and
    LEAs had not clearly disseminated them at the time of our
    fieldwork, members of the public are unaware of how to file a
    complaint. Furthermore, several past MOAs did not include
    details on how to file a complaint.

    A related issue is an awareness of when it is appropriate to file a
    complaint regarding immigration enforcement activities under the
    287(g) program. For example, those encountered by law
    enforcement officers cannot distinguish between 287(g) officers
    and other types of officers from the same jurisdiction. 287(g)
    officers do not wear distinctive clothing, and until recently, did not
    have credentials to validate their immigration enforcement
    authority. Because 287(g) officers do not regularly display
    credentials during operations or interviews to determine alien
    status and removability, many people remain unclear as to whether
    the officers they encounter are 287(g) certified. Therefore, there
    are uncertainties about filing a complaint in situations that may
    involve inappropriate LEA actions.

    NGOs and community groups have received complaints attributed
    to the 287(g) program. Representatives advised us that it was
    difficult for individuals to pursue many of these complaints
    because of insufficient information about the complaint process.
    For example, at the time of our fieldwork 287(g) complaint
    reporting procedures were not available in ICE or LEA facilities
    where individuals affected by the 287(g) program are most likely
    to see them.

Recommendations
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #28: Publish 287(g)-complaint reporting
    procedures on ICE’s public website, and ensure that these

           The Performance of 287(g) Agreements

                         Page 38
procedures are posted in participating LEA buildings, and shared at
community meetings.

Recommendation #29: Require 287(g) officers to identify
themselves and display their credentials during federal
immigration arrests, before initiating interviews regarding alien
status and removability, and as part of other immigration
processing activities.

287(g) Program Information and Training for LEA
Supervisors Can Improve the Operating Environment

GAO’s “Standards for Internal Control in the Federal
Government” state that programs should foster a positive control
environment. The 287(g) program’s work environment is
influenced by several factors outside of ICE, most notably by LEA
officials within the participating jurisdiction. While ICE has the
authority to supervise and direct officers in their performance of
287(g) program activities, LEA officials often control the
operating environment in which 287(g) officers perform their
immigration functions. LEA managers responsible for the overall
supervision of officers participating in the 287(g) program can
adversely affect program operations. As a result, ICE’s ability to
supervise and direct 287(g) efforts is influenced by its relationship
with the LEA and 287(g) officers.

The following scenarios are examples of a LEA supervisors’
influence on the success of 287(g) program activities:

   �	 An LEA supervisor removed ICE computer equipment
      from 287(g) officers’ workspace without explanation and
      locked it in a closet, limiting their ability to process aliens.

   �	 At another program site, 287(g) personnel reported low
      morale because of infrequent recognition from their
      supervisors and managers for their federal immigration
      enforcement work.

   �	 LEA supervisors who regarded the 287(g) program
      favorably indicated that additional information about the
      program would help them to support it more effectively.

Training for LEA supervisors varied from site to site. Some LEA
supervisors attended 287(g) basic training and were certified to
perform federal immigration enforcement functions, while others
received no training. LEA supervisors who had completed the

      The Performance of 287(g) Agreements

                    Page 39
           287(g) training program explained that they were better able to
           address program needs as a result. LEA supervisors and managers
           who had not received 287(g) training advised us that they would be
           better able to support 287(g) efforts if they had received
           information about the program. Managers and supervisors at
           another location suggested that ICE develop an abbreviated 287(g)
           orientation program so they could better understand the 287(g)
           program, along with the duties and responsibilities of their staff
           who are participating in the program.

           LEA and ICE officials indicated that ICE should consider
           providing LEA supervisor training as part of its efforts to improve
           operating conditions. At the time of our fieldwork, OSLC had
           begun coordinating with OTD to develop and deliver this type of
           training program. With training, LEA supervisors would be better
           positioned to provide an effective operating environment for
           287(g) officers.

     Recommendation
           We recommend that the Assistant Secretary for Immigration and
           Customs Enforcement:

           Recommendation #30: Develop training and provide basic
           program information for LEA managers who maintain an oversight
           role for 287(g) officers in order to increase their understanding of
           the program and encourage their support of 287(g) activities.


287(g) Officers Need Consistent Access to DHS Information
Systems
           Immigration officers use several DHS information systems to enter
           and retrieve information when performing immigration
           enforcement functions. However, 287(g) officers maintain varying
           levels of access to DHS systems. Limitations in system access can
           inhibit 287(g) officers’ ability to perform their full range of
           immigration activities.

           287(g) officers use the following DHS systems to perform
           immigration enforcement functions:

              �	 Enforcement Case Tracking System (ENFORCE) is the
                 primary ICE administrative case management system. It
                 includes biographical data on aliens and links to related
                 biometric information, and it is used to identify and track
                 The Performance of 287(g) Agreements

                               Page 40
       aliens during the detention and removal processes. 287(g)
       officers use ENFORCE to enter information about their
       encounters with aliens and to process aliens for removal
       from the United States. 287(g) officers also use ENFORCE
       to determine the disposition of past immigration hearings
       and removals.

   �	 Central Index System (CIS) contains information on aliens’
      A-files, as well as basic biographical information on lawful
      permanent residents, naturalized citizens, and violators of
      immigration laws. 287(g) officers use the system to
      determine whether an alien has an existing A-file they need
      to request, or to create A-files for newly identified aliens.

   �	 National File Tracking System (NFTS) tracks and accounts
      for A-files. 287(g) officers use the system to locate
      existing A-files for aliens they have encountered in order to
      request and update the A-files.

   �	 Computer Linked Application Information Management
      System (CLAIMS) records and tracks the status of
      applications for immigration benefits and naturalization
      petitions. 287(g) officers use this information to determine
      the status of aliens’ immigration benefits and naturalization
      applications, both of which are key factors in their
      removability.

   �	 TECS, formerly known as the Treasury Enforcement
      Communications System, contains inspection data on
      travelers who have entered or attempted to enter the United
      States, as well as information on ICE criminal investigations.
      287(g) officers use this system to determine whether aliens
      have entered the country illegally. Some TFOs also use
      TECS to record investigative case information and prepare
      reports on associated searches, arrests, and seizures.

As of March 2009, OSLC indicated that there were 805 active
287(g) officers. OCIO records showed that 92%, or 738, of these
officers had access to the ENFORCE system. However, 561
officers (70%) had access to NFTS, 358 officers (44%) had access
to CIS, 283 officers (35%) had access to CLAIMS, and 81 officers
(10%) maintained system accounts in TECS.

287(g) officers at two locations said that different officers in their
LEAs who perform the same immigration functions have access to
different DHS systems or different parts of those systems. OCIO

       The Performance of 287(g) Agreements

                     Page 41
             data regarding 287(g) officers’ system access indicate that even
             though a high percentage of officers had access to ENFORCE,
             fewer than a third had access to the ENFORCE Removals Module,
             which contains information on the final disposition of aliens’
             immigration hearings and removal proceedings. Within CIS,
             287(g) officers had 22 different system access configurations,
             ranging from complete system access for 3 officers to access to
             approximately half of the system for 140 officers.

             According to ICE officials, system access differences were an
             outgrowth of local program conditions. For example, at one
             location, ICE representatives advised that 287(g) officers did not
             need to use NFTS because ICE administrative staff located and
             requested A-files on their behalf. They further explained that the
             program aimed to limit 287(g) officer access to TECS because of
             concerns regarding the sensitivity of information. ICE
             representatives also said that in some cases, 287(g) officers’
             accounts have expired due to infrequent use. However, they were
             unable to explain other disparities in system access.

             287(g) officers’ access to DHS systems needs to be more uniform
             to enable ICE to better monitor the appropriateness of system
             access, and to ensure uniformity in their ability to input and
             retrieve immigration enforcement data.

      Recommendation
             We recommend that the Assistant Secretary for Immigration and
             Customs Enforcement:

             Recommendation #31: Establish and implement standard
             immigration system access profiles for 287(g) officers to ensure that
             officers have the access needed to perform immigration functions.
             These access profiles should be customized by program model to
             address the different functions that TFOs and JEOs perform.

Additional Issues Identified
      During our review, we identified additional issues that, while not directly
      related to our objective of assessing ICE controls over 287(g) program
      implementation, we feel should be brought to management’s attention.




                    The Performance of 287(g) Agreements 


                                  Page 42 

    ICE Has Used Unauthorized Detention Facilities to Detain
    Aliens Identified Through the 287(g) Program

    ICE enters into Inter-Governmental Service Agreements (IGSA)
    with state and local jurisdictions to use their facilities to detain
    aliens in ICE custody. ICE compensates facilities with IGSAs for
    the cost of detaining aliens at a prearranged rate. As of February
    2009, 29 of the 66 jurisdictions participating in the 287(g) program
    had active IGSAs with ICE for detaining aliens. In FYs 2008 and
    2009, ICE paid 21 of these jurisdictions to detain aliens identified
    and processed by 287(g) officers.

    Before entering into an IGSA, ICE conducts a physical inspection
    of the facility to ensure compliance with ICE detention standards,
    and examines the cost-effectiveness of the agreement. Thereafter,
    ICE conducts annual inspections of facilities authorized to house
    ICE detainees. These annual inspections assess the facilities’
    compliance with ICE custody standards to ensure safe, secure, and
    humane conditions for detainees.

    According to data ICE provided us, it has detained aliens identified
    through the 287(g) program at three facilities that were not
    authorized by ICE, and therefore not subject to inspection. ICE
    compensated participating jurisdictions for detention services in
    these facilities, although the facilities were not authorized to house
    aliens in ICE custody. From October 2008 to early March 2009,
    ICE detained a daily average of 65 aliens identified through the
    287(g) program in these facilities.

    Detention facility inspections help ensure compliance with ICE
    detention standards. ICE needs to ensure that detention facilities
    used to house 287(g) detainees are approved and operating in
    accordance with applicable standards.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #32: Develop a process for performing regular
    checks to ensure that aliens identified through the 287(g) program
    are not held in unauthorized facilities while in ICE custody.




          The Performance of 287(g) Agreements 


                        Page 43 

    ICE Vehicles Have Been Underutilized

    ICE purchased 74 vans in FYs 2006 and 2007, and distributed them
    to ICE field offices with 287(g) programs. ICE managers at these
    field offices planned to have 287(g) officers use the vans to transport
    aliens in ICE custody. However, ICE has not permitted 287(g)
    officers to drive the vans because of liability concerns regarding the
    use of ICE vehicles by outside employees. Additionally, ICE has
    not permitted 287(g) officers to use the vehicles because MOAs do
    not specifically allow for such use of government property.
    Therefore, several of the vans are not being used for any program
    purpose.

    At one program site we visited, ICE field staff reported that they
    had received six vans for the 287(g) program; however, the vans
    could not be used since 287(g) officers are not ICE employees. An
    ICE manager at another field office told us that its two vans were
    generally idle because ICE policy prevented 287(g) officers from
    using them.

    Since OSLC does not maintain information on the location of all
    vehicles that were delivered to ICE field offices for use in the
    287(g) program, we were unable to assess the full extent of this
    problem. However, ICE’s liability concerns are not clear to us.
    For purposes of determining liability and immunity from civil
    lawsuits, section 287(g)(8) assures that officers performing
    delegated duties shall be considered to be acting under the color of
    federal authority. We also note that section 287(g)(4) allows
    officers to use federal property as provided for in the MOAs. ICE
    should consider whether the administrative prohibition on vehicle
    use by 287(g) officers could be resolved by amending the MOAs
    as appropriate.

Recommendation
    We recommend that the Assistant Secretary for Immigration and
    Customs Enforcement:

    Recommendation #33: Evaluate ICE’s position on the use of
    287(g) vehicles by participating LEA officers to determine whether
    the vehicles can be used for the purpose for which they were
    purchased. If not, identify underutilized 287(g) vehicles, and take
    appropriate steps to use or dispose of those assets in accordance
    with applicable law.



           The Performance of 287(g) Agreements

                         Page 44
Management Comments and OIG Analysis
             We evaluated ICE’s written comments and have made changes to
             the report where we deemed appropriate. Below is a summary of
             ICE’s written responses to our recommendations and our analysis
             of the responses. A copy of ICE’s response, in its entirety, appears
             in Appendix B.

             Recommendation #1: Establish a process to collect and maintain
             arrest, detention, and removal data for aliens in each priority level
             for use in determining the success of ICE’s focus on aliens who
             pose the greatest risk to public safety and the community.

             ICE Response: ICE concurs with the recommendation. In June
             2009, OSLC created a data quality review section to analyze data
             that 287(g) officers put into ICE data management systems.
             Particular attention will be paid to the numbers of criminal aliens
             identified and the nature of their offenses. In August 2009, the
             ICE OSLC mandated that 287(g) officers populate the Criminal
             Sensitivity Level fields in the Enforcement Case Tracking System.
             OSLC is currently working with ICE's Secure Communities and
             ICE's Detention and Removal Operations to refine the Criminal
             Sensitivity Levels to comply with ICE priorities.

             OIG Evaluation: The recommendation is resolved and open
             pending our receipt and review of the revised Criminal Sensitivity
             Level fields to ensure compliance with ICE priorities. In addition,
             ICE needs to provide documentation of the data quality review
             process for analyzing data that 287(g) officers input to ICE
             systems as part of efforts to ensure a focus on aliens who pose the
             greatest risk to public safety and the community.

             Recommendation #2: Develop procedures to ensure that 287(g)
             resources are allocated according to ICE’s priority framework.

             ICE Response: ICE concurs with the recommendation. OSLC is
             developing a strategic plan that directly aligns its goals and
             objectives, and those of the 287(g) program, with ICE and DHS
             priorities. OSLC has drafted a revised performance measure that
             will consider the nature of the criminal offense based on the
             severity of crime (Levels 1, 2, and 3). OSLC will establish a
             baseline and communicate targets for each severity level that will
             reflect prioritizations based on crime level, and average volume of
             encounters within each crime level.



                   The Performance of 287(g) Agreements

                                 Page 45
OIG Evaluation: The recommendation is unresolved and open.
ICE has established priorities for alien arrest and detention levels,
but has not developed a process to ensure that 287(g) resources are
prioritized according to these levels. This recommendation will
remain unresolved and open pending ICE’s development of such a
process.

Recommendation #3: Establish and implement TECS data entry
requirements that reflect investigative efforts and related
prosecutions associated with the 287(g) program.

ICE Response: ICE concurs with the recommendation. This
recommendation was completed on May 9, 2009, when the ICE
Office of Investigations (OI) and DRO Directors signed a
memorandum requiring OI and DRO offices to use the Treasury
Enforcement Communication System program codes specific to
the 287(g) program to capture administrative arrests,
investigations, and prosecutions.

OIG Evaluation: The recommendation is unresolved and open.
The May 9, 2009 memorandum, addresses initial data entry of a
specific code to identify administrative arrests, investigations, and
prosecutions. However, it does not include a data entry
requirement for any updates to case information or the final
judicial disposition.

Recommendation #4: Establish a process to ensure effective
supervision of 287(g) officers and immigration enforcement
operations.

ICE Response: ICE concurs with the recommendation. The
OSLC and the ICE Office of Training and Development (OTD) are
developing a Supervisory/Manager training curriculum for ICE
personnel who oversee 287(g) officers in the field. The training
will be operational in 2010. OSLC FY10 performance measures
include headquarters oversight of the supervisory functions for
287(g). Additionally, OSLC is developing a comprehensive
communications plan to facilitate widespread understanding of
ICE supervisory roles. This communications plan will be ready for
implementation by February 2010. OSLC will coordinate with
OTD to ensure the plan is included in future supervisory training
modules.

OIG Evaluation: The recommendation is resolved and open
pending our receipt and review of the Supervisory/Manager


       The Performance of 287(g) Agreements

                     Page 46
training curriculum and the communications plan, along with dates
for implementation.

Recommendation #5: Develop controls to ensure that supervisory
responsibilities for 287(g) supervisors are considered when
determining staffing ratios in ICE field offices.

ICE Response: ICE concurs with the recommendation. ICE has
received funding that will allow additional supervisory positions
within the 287(g) program. ICE has distributed a total of 23
program manager positions to field offices to support existing
287(g) programs. These additional positions will help balance the
ratio of supervisors. ICE will strive to continue expanding the
number of supervisors as the 287(g) program matures.

OIG Evaluation: The recommendation is unresolved and open.
The addition of 23 program manager positions to support existing
287(g) programs should help to reduce current staffing
deficiencies. However, the ICE response does not address a
process to ensure that responsibilities for 287(g) supervisors are
consistently taken into consideration when determining staffing
ratios for ICE field offices.

Recommendation #6: Ensure that 287(g) supervision is provided
by authorized staff with the appropriate knowledge, skills, and
abilities.

ICE Response: ICE concurs with the recommendation. The
OSLC and OTD are developing a three day Supervisory/Manager
training curriculum for ICE personnel who oversee 287(g) officers
in the field. The training will cover all aspects and responsibilities
of the MOA for ICE and our partners. All 287(g) ICE managers
and supervisors will be required to complete the training, which
will be operational in 2010.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of Supervisory/Manager training
curriculum and verification of its use for all 287(g) ICE managers
and supervisors.

Recommendation #7: Develop and implement 287(g) field
supervision guidance that includes, at a minimum (1) the frequency
and type of contact required between 287(g) officers and ICE
supervisors; (2) the preparation, review, and approval of operational
plans for community-based immigration enforcement activities; and
(3) performance feedback requirements for 287(g) officers.

       The Performance of 287(g) Agreements

                     Page 47
ICE Response: ICE concurs with the recommendation. OSLC is
creating a communications plan to improve our interactions with
community groups and all other stakeholders. The plan will
delineate best communication practices and benefits, and ensure
that stakeholders understand the 287(g) program's policies and
initiatives. The communications plan is scheduled to be completed
by February 2010 and will address the issues raised in the draft
report. The communications strategy will incorporate a standard
process for creating, reviewing, and delivering clear, consistent
messages about the 287(g) program, including the goals and
mission of the program, the benefits of the program, and recent
success stories. The communications strategy will also include a
stakeholder assessment to identify and assess stakeholders' needs
and concerns.

OIG Evaluation: This recommendation is unresolved and open.
The communication plan described in ICE’s response should be
effective in improving interactions with community groups and
other stakeholders. However, the purpose of this recommendation
is to resolve inconsistencies identified in ICE’s supervision of
287(g) officers, which is not addressed in the proposed
communications strategy.

Recommendation #8: Establish and implement a comprehensive
process for conducting periodic reviews, as well as reviews on an
as-needed basis, to determine whether to modify, extend, or
terminate 287(g) agreements. At a minimum, this process should
include an assessment of (1) current or previous concerns
expressed by field office staff; (2) media attention or community
concerns that contribute to negative or inappropriate conclusions
about the 287(g) program; (3) lawsuits or complaints; (4) potential
civil rights and civil liberties violations; and (5) ICE’s ability to
provide effective supervision and oversight.

ICE Response: ICE concurs with the recommendation. In FY
2008, the ICE Office of Professional Responsibility (OPR)
established a 287(g) Review Program to review the terms of the
MOAs. OSLC relies on OPR inspections reports to support
decisions to modify, extend, or terminate 287(g) agreements.
Further, OSLC communicates regularly with LEA counterparts,
non-government organizations, and the DHS Office for Civil
Rights and Civil Liberties to collect feedback about the 287(g)
program. The formalization of communications to LEAs is
included in the OSLC communications plan that will be completed
in February 2010.

      The Performance of 287(g) Agreements

                    Page 48
OIG Evaluation: This recommendation is unresolved and open.
Inspections conducted by OPR are important to ensure LEAs’
compliance with 287(g) agreements. However, the
recommendation addresses other factors that should be
incorporated into an overall strategy for determining whether
current 287(g) agreements should be modified, extended, or
terminated. Reference to those factors was not included in the ICE
response.

Recommendation #9: Require 287(g) program sites to maintain
steering committees with external stakeholders, with a focus on
ensuring compliance with the MOA.

ICE Response: ICE concurs with the recommendation. OSLC is
developing a communications plan which will incorporate all
channels for delivering and receiving key communications,
including steering committees. The communications strategy will
be implemented in 2010, and will include a communications
planning matrix to identify critical communications activities,
when they need to be executed, and the point-of-contact
responsible for executing the activities.

OIG Evaluation: This recommendation is unresolved and open.
The communications strategy described in ICE’s response does not
address any specifics regarding steering committees, such as its
membership, or specific duties and responsibilities in assessing
immigration enforcement activities or compliance with the MOA.

Recommendation #10: Establish a process to periodically cross­
check OPR, OSLC, and OCIO records to confirm 287(g) officers’
eligibility and suitability to exercise authorities granted under
287(g) MOAs.

ICE Response: ICE concurs in part with our recommendation,
noting that 287(g) officers are vetted only for suitability, and not
for issuing federal security clearances. ICE has established a
system to ensure that suitability reviews are conducted for all
287(g) officers. This process is addressed in the ICE policy
established in October 2007 titled, "ICE Screening Criteria for
Federal, State, or Local Law Enforcement, Correctional, and
Mission Support Personnel Supporting ICE Programs." ICE
acknowledges that, prior to the establishment of this policy, Office
of Chief Information Officer, OPR, and OSLC rosters of 287(g)
nominees and officers were not reconciled. To further ensure
proper access is granted only to qualified participants, OSLC is

      The Performance of 287(g) Agreements

                    Page 49
creating a policy entitled "Suspension and Revocation of a
Designated Immigration Officer's 287(g) Authority." This policy
will formalize the current cross checks performed by the OSLC
training manager on active/inactive 287(g) officers listed with
OPR.

OIG Evaluation: The recommendation is resolved and open.
MOAs in effect during our field work included language that all
candidates must be approved by ICE and qualify for federal
security clearances. This was revised in the new MOAs, which
require that all candidates be able to qualify for access to
appropriate DHS and ICE databases. We will close this
recommendation after receipt and review of the new policy, which
formalizes cross checks performed on active and inactive 287(g)
officers listed with OPR.

Recommendation #11: Establish a process to ensure that LEAs
report to OPR any allegations or complaints against 287(g) officers
and other LEA personnel alleged to have improperly performed
immigration enforcement activities, as well as the results of any
subsequent investigations.

ICE Response: ICE concurs with the recommendation. The new
MOA requires participating agencies to inform ICE of all
complaints regarding their 287(g) officers as well as the outcome
of those complaints.

OIG Evaluation: Based on our review of the new MOA, we
consider the recommendation resolved and closed.

Recommendation #12: Establish and implement procedures on
how the results of complaints, allegations, and subsequent
investigations against LEA personnel conducting immigration
enforcement activities should be maintained and used as part of the
suitability and recertification processes.

ICE Response: ICE concurs with the recommendation. OSLC has
developed a comprehensive procedure through which it delivers
the results of all OPR inspections and the respective areas for
improvement to ICE field components for action. All inspection
and administrative investigative findings from OPR, CRCL, and
the OIG will be evaluated by OSLC management to determine the
feasibility of all ICE 287(g) partnerships. The same process is used
to document individual LEA officer derogatory findings.



      The Performance of 287(g) Agreements

                    Page 50
OIG Evaluation: The recommendation is unresolved and open.
The comprehensive procedure in ICE’s response pertains to OPR
inspection reports, which address overall 287(g) program
compliance. However, the focus of this recommendation is the use
of complaints, allegations, and investigations involving individual
LEA personnel conducting immigration enforcement activities as
part of the suitability and recertification process. Therefore, the
procedures used for addressing OPR 287(g) reports are not
responsive to this recommendation.

Recommendation #13: Establish specific operating protocols and
requirements for operational variances identified in task force and
jail enforcement program models.

ICE Response: ICE concurs with the recommendation which was
completed in July 2009, with issuance of the new MOA template.
Appendix D of the revised MOA was drafted to provide flexibility
to address issues of local concern, including the variances cited in
the OIG report. ICE can negotiate with jurisdictions before
entering into 287(g) partnerships to address supervisory
arrangements, state and local laws, and other specific needs or a
particular agency.

OIG Evaluation: The recommendation is unresolved and open.
As stated in the ICE response, Appendix D of the revised MOA
provides flexibility to address any specific issue of concern.
However, this flexibility does not provide assurances that
variances in 287(g) operating protocols, such as those identified in
our report will be consistently addressed. The new MOA
requirement for operations plans to be submitted to an ICE agent
for approval prior to being carried out is a positive step in
providing guidance and consistency in 287(g) operations.

Recommendation #14: Study the feasibility and appropriateness
of increasing the frequency of OPR 287(g) inspections, and report
findings to the OIG.

ICE Response: ICE concurs with the recommendation. In 2009,
ICE decided to increase the frequency of OPR 287(g) inspections.
In FY 2010, OPR will ensure that 48 of 64 of the 287(g) programs,
or 75%, will have been reviewed.

OIG Evaluation: The recommendation is unresolved and open.
For FY 2010, ICE has determined how many OPR inspections will
be completed. However, ICE has not provided any specific
quantity or the details regarding a process for determining the
      The Performance of 287(g) Agreements

                    Page 51
frequency for conducting OPR inspections beyond the current
fiscal year to ensure continued management attention and
oversight.

Recommendation #15: Require 287(g) applicants to provide
information about past and pending civil rights allegations, and
incorporate a civil rights and civil liberties review as part of the
documented 287(g) site selection and MOA review processes.

ICE Response: ICE concurs with the recommendation which was
completed in August 2009, when OSLC created a candidate
questionnaire for all LEA officers attending 287(g) training.
Additionally, DHS CRCL is now an active participant in the OSLC
Internal Advisory Committee.

OIG Evaluation: This recommendation is unresolved and open.
The candidate questionnaire developed for each proposed law
enforcement officer candidate should be a useful tool in ICE’s
initial suitability assessment of 287(g) candidates. However, the
focus of this recommendation is to address past performance of
each LEA, including civil rights and civil liberties factors, as part
of the site selection and MOA review processes, which is not a part
of the candidate questionnaire.

Recommendation #16: Include a representative on the advisory
committee to provide insights into civil rights and civil liberties
issues as part of the approval process.

ICE Response: ICE concurs with the recommendation which was
completed in October 2009, when DHS CRCL began participating
in the OSLC Internal Advisory Committee.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of documentation that describes
CRCL’s role and responsibilities on the OSLC Internal Advisory
Committee as it relates to the 287(g) application review and site
selection process.

Recommendation #17: Develop a process to ensure that
information submitted from ICE field offices as part of the
application review process is fully taken into consideration before
a final decision is made. This recommendation should include
provisional approvals that require resource considerations to
ensure proper supervision and oversight.



       The Performance of 287(g) Agreements

                     Page 52
ICE Response: ICE concurs with the recommendation which was
completed when OSLC instituted an Internal Advisory Committee
in May 2009, to review and assess field office recommendations
about pending 287(g) MOA applications. The Internal Advisory
Committee is comprised of stakeholder representatives from ICE
OI, DRO, OTD, SC, Office of Principle Legal Advisor (OPLA)
Office of Chief Information Officer, Office of Congressional
Relations, Office of Public Affairs, and DHS CRCL.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of documentation describing the
process used by the OSLC Internal Advisory Committee to assess
and review field office recommendations for pending 287(g)
applications.

Recommendation #18: Establish collection and reporting
standards that provide objective data to increase monitoring of
methods participating jurisdictions use in carrying out 287(g)
functions, and their effect on civil liberties. Collection and
reporting requirements should include (1) the circumstances and
basis for TFO contacts with the public, (2) the race and ethnicity of
those contacted, and (3) the prosecutorial and judicial disposition
of 287(g) arrests.

ICE Response: ICE does not concur, but is assessing the goal of
this recommendation to ensure that ICE's 287(g) partners protect
the civil liberties of every individual they encounter. OIG
recommends the collection of data similar to a consent decree
applicable to agencies that have engaged in racial profiling. This
would require the collection of data beyond that which DHS and
DOJ require of their own law enforcement officers and agencies.
Although ICE strongly opposes racial profiling and adheres fully
to all data collection requirements of federal law, the collection of
this data raises logistical issues including whether a TFO would
report all interactions, just interactions predicated solely on 287(g)
authority, and how the TFO would distinguish in a meaningful way
while performing his or her daily duties.

OIG Evaluation: This recommendation is unresolved and open
pending our receipt and review of ICE’s assessment of this
recommendation, along with any subsequent plans to ensure that
their 287(g) partners protect the civil liberties of individuals
encountered.

Recommendation #19: Determine whether the current timeframe
for civil rights law training is adequate to achieve appropriate

      The Performance of 287(g) Agreements

                    Page 53
coverage, and modify timeframes and coverage as needed to
ensure that sufficient training is provided.

ICE Response: ICE concurs with the recommendation. Starting in
FY 2010, OSLC requires that 287(g) officers complete a "Use of
Race" Virtual University course on an annual basis to retain their
certification. The civil rights training in 287(g) addresses those
provisions in the 4th, 5th, 6th, and 14th Amendments. The training
covers criminal and administrative matters, and the federal statutes
that address the deprivation of civil rights and the consequences for
depriving people of their rights.

OIG Evaluation: This recommendation is unresolved and open.
The focus of this recommendation is the effectiveness of the civil
rights laws training curriculum, which we determined to be less
comprehensive than similar training provided to ICE IEAs. While
the “Use of Race” Virtual University course achieves the
appropriate amount of coverage for a Use of Race training
requirement, it can not be used as a supplement for achieving
appropriate coverage in civil rights laws.

Recommendation #20: Ensure that 287(g) basic training includes
coverage of MOAs, and public outreach and complaint procedures.

ICE Response: ICE concurs with the recommendation. On the
first day of 287(g) officer training, OPLA instructors provide
instruction on the terms of the MOA. Although ICE provides this
training, ICE also expects that our 287(g) partners will ensure that
their participating officers understand the responsibilities specified
in the MOA. Public outreach principles are covered extensively in
the "Cross Cultural Communication" block of the 287(g) training
program. Instruction in "Complaint Procedures" was included in
the training program, with additional instruction provided on
complaint procedures and officer integrity.

OIG Evaluation: This recommendation is unresolved and open.
Based on our review of training materials and course schedules, we
determined that the MOA, public outreach, and complaint
procedures are presented in 1-hour training modules. However,
287(g) officers informed us that ICE instructors have not
consistently delivered these training modules, and they did not
receive instruction on the MOA or complaint process. The
purpose of this recommendation is for ICE to ensure that
participants receive this training as specified in the course
schedules.


       The Performance of 287(g) Agreements

                     Page 54
Recommendation #21: Enhance the current 287(g) training
program to provide comprehensive coverage of immigration
systems and processing. At a minimum, this should include hands-
on experience during the 287(g) basic training course, on-the-job
training, and periodic refresher training.

ICE Response: ICE concurs with the recommendation. In
February 2009, OSLC and OTD created a one week refresher
training for active 287(g) officers who wanted additional
immigration law and ICE systems training. In November 2009, the
287(g) basic training academy began using a state-of-the art
simulated detainee processing and holding center. This allows
287(g) officers to experience various scenarios that occur when
processing aliens. 287(g) students depart the ICE Academy with at
least three practice folders to use as reference materials for future
processing, and also use these folders in class during the "A-File
Review" block of instruction. At any time, 287(g) officers can
access the online distance learning refresher courses on the ICE
Virtual University. Additionally, OSLC is creating an on the job
training program manual for graduated officers with an expected
delivery date of March 2010.

OIG Evaluation: This recommendation is resolved and open
pending verification of a completed on the job training program
manual for graduated officers.

Recommendation #22: Ensure that an appropriate level of
coverage on immigration benefits, asylum, and victim and witness
protections is included as part of the 287(g) basic training agenda.

ICE Response: ICE concurs with the recommendation. The
"Special Status Aliens" and the "Victim Assistance" elements of
the 287(g) basic training program include an overview of asylum,
victim, and witness protections. Students receive instruction on the
proper methods for assisting victims of human trafficking, abuse or
other alien vulnerabilities. The court's decision in American Baptist
Churches v. Thornburg is explained in detail and discussed in the
"Alternate Orders of Removal" block of instruction. The
assessment of a student's ability to meet the training objectives
throughout the entire course is measured in multiple-choice exams
and a series of 16 hours of hands-on, realistic, scenario-based
practical exercises conducted in the final week of training.

OIG Evaluation: This recommendation is unresolved and open.
As shown in the report, there was limited information in the 287(g)
basic training program for significant immigration benefits. Of the

      The Performance of 287(g) Agreements

                    Page 55
108 slides in the “Alternate Orders of Removal” block of
instruction, we identified 3 that referred to Eligible American
Baptist Churches class members. However, a definition or
explanation of what qualified an alien to be a protected class
member under this court decision was not provided.

Also, the multiple choice exam used to assess the students’ ability
to meet the training objectives does not include any questions that
address the asylum process or immigration benefits, and only three
questions that relate to victim and witness protections and asylum.

Recommendation #23: Establish and issue guidance to field
office staff for 287(g) officer annual recertification training that
emphasizes completion of online refresher training courses.

ICE Response: ICE concurs with the recommendation. OSLC is
drafting a policy entitled, "Annual Recertification of Designated
Immigration Officers' Delegated Authority." This policy is
currently pending final approval.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of the approved policy.

Recommendation #24: Designate field office responsibilities for
monitoring and enforcing compliance with training guidance to
include, at a minimum, issuing and enforcing revocation notices
for 287(g) officers who do not complete required training.

ICE Response: ICE concurs with the recommendation. OSLC is
in the process of drafting a policy titled "Suspension and
Revocation of a Designated Immigration Officer's 287(g)
Authority." This policy is currently pending final approval.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of the approved policy.

Recommendation #25: Develop and implement clear guidelines
for using interpreter support to assist with immigration duties and
responsibilities.

ICE Response: ICE concurs with the recommendation. ICE trains
287(g) students on the importance of using interpreters in
immigration enforcement. The training addresses the use of
interpreters during the "Sworn Statements" block of instruction.
The 287(g) graduates are granted access to online independent
study foreign language tutorials. In July 2009, OSLC provided

       The Performance of 287(g) Agreements

                     Page 56
LEAs upon request, access to the "DHS Interpreters Service." In an
October 29, 2009 email communication, ICE offered 287(g) state
and local partner's interpretation resources in conjunction with the
Department of Justice's (DOJ) Civil Rights Division. DOJ also
provided additional materials to include a flip card with words in
multiple languages to help identify what language a person speaks.
A printed copy of the communication and additional materials
were mailed separately in November 2009.

OIG Evaluation: This recommendation is unresolved and open.
ICE’s response describes interpreter resources available to 287(g)
officers. However, our finding addresses a need for clear
guidelines that illustrates circumstances under which 287(g)
officers should actually use interpreter support.

Recommendation #26: Establish a process to provide the public
and other stakeholders with comprehensive information about the
287(g) program and associated operations.

ICE Response: ICE concurs with the recommendation. OSLC is
developing a communications plan to be implemented in February
2010. The communications plan will incorporate standard
processes for creating, reviewing, and delivering clear, consistent
messages about the 287(g) program, including the goals and
mission of the program, the benefits of the program, and recent
success stories. The communications plan will also include a
stakeholder assessment to identify and assess their needs and
concerns. OSLC has also made modification to its Internet site.
Documentation is readily available to the public, which includes
redacted copies of all existing MOAs.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of the communications plan as
implemented. The communications plan should incorporate
program areas identified in the ICE response, in addition to 287(g)
program policies and related statistics on overall program
operations.

Recommendation #27: Ensure the accuracy of information
disseminated to the public about the goals of the 287(g) program,
its various operations, and how immigration enforcement activities
are carried out in the actual working environment.

ICE Response: ICE concurs with the recommendation. OSLC is
developing a communications plan for implementation by
February 2010. This will identify roles and responsibilities and

      The Performance of 287(g) Agreements

                    Page 57
incorporate standard processes for creating and delivering clear,
consistent messages about the 287(g) program. The processes will
include appropriate steps for reviewing communications for
accuracy to establish a layer of accountability. Additionally, the
strategy will identify opportunities to strengthen internal
communications to help ensure that stakeholders are receiving and
disseminating accurate information about 287(g). The strategy
will also expand outreach and interaction with key stakeholders,
such as conferences and conference calls, to strengthen feedback
and enable OSLC to identify and address misinformation about the
program in a timely manner.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of the communications plan
detailing a process for ensuring the accuracy of 287(g) information
disseminated to the public.

Recommendation #28: Publish 287(g)-complaint reporting
procedures on ICE’s public website, and ensure that these
procedures are posted in participating LEA buildings, and shared at
community meetings.

ICE Response: ICE concurs with the recommendation. The
287(g) complaint reporting procedure was completed and posted
on the ICE website in October 2009. Also, the complaint reporting
process is described in Appendix B of the MOA.

OIG Evaluation: This recommendation is resolved and closed.

Recommendation #29: Require 287(g) officers to identify
themselves and display their credentials during federal
immigration arrests, before initiating interviews regarding alien
status and removability, and as part of other immigration
processing activities.

ICE Response: ICE concurs with the recommendation. At
graduation, all candidates are awarded ICE 287(g) credentials.
During the training program, all 287(g) students are advised that as
the first mandatory step in any official encounter, they must
identify themselves by name, agency, and title.

OIG Evaluation: This recommendation is unresolved and open.
As part of our review of the 287(g) training program, we did not
identify course material that provided advice regarding officer
identification as a first step in any official encounter. In addition,


       The Performance of 287(g) Agreements

                     Page 58
providing such information in the form of advice is not sufficient
to satisfy the intent of this recommendation.

Recommendation #30: Develop training and provide basic
program information for LEA managers who maintain an oversight
role for 287(g) officers in order to increase their understanding of
the program and encourage their support of 287(g) activities.

ICE Response: ICE concurs with the recommendation. OSLC
and OTD are creating two new 287(g) training curriculums. The
first training curriculum is for ICE supervisors, the second training
curriculum targets LEA supervisors who have not attended the
287(g) basic training. These two curriculums are still in
development.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of the new 287(g) training
curriculum for LEA managers who have not attended 287(g) basic
training.

Recommendation #31: Establish and implement standard
immigration system access profiles for 287(g) officers to ensure that
officers have the access needed to perform immigration functions.
These access profiles should be customized by program model to
address the different functions that TFOs and JEOs perform.

ICE Response: ICE concurs with the recommendation. In July
2009, OSLC assumed the responsibility of creating PICS accounts
and ENFORCE profiles for all 287(g) students. This was in
response to complaints from field supervisors that 287(g) officers
were not given all of the accesses they needed to perform their
mission.

OIG Evaluation: This recommendation is unresolved and open.
ICE’s response does not address 287(g) officers’ access to all DHS
systems identified in our report that are used to perform
immigration enforcement functions.

Recommendation #32: Develop a process for performing regular
checks to ensure that aliens identified through the 287(g) program
are not held in unauthorized facilities while in ICE custody.

ICE Response: ICE concurs with the recommendation. OSLC
will work with DRO to ensure that after persons identified through
the 287(g) program are taken into ICE custody, only authorized


      The Performance of 287(g) Agreements

                    Page 59
and inspected facilities are used to detain them. This process will
be completed by May 2010.

OIG Evaluation: This recommendation is resolved and open
pending our receipt and review of documentation of OSLC and
DRO actions to ensure that only authorized and inspected facilities
are used to detain persons identified through the 287(g) program.

Recommendation #33: Evaluate ICE’s position on the use of
287(g) vehicles by participating LEA officers to determine whether
the vehicles can be used for the purpose for which they were
purchased. If not, identify underutilized 287(g) vehicles, and take
appropriate steps to use or dispose of those assets in accordance
with applicable law.

ICE Response: ICE concurs with the recommendation. In FY
2006 – FY 2008, the 287(g) delegation of authority program
purchased 14 sedans and 75 transport vans for OI and DRO. OI
and DRO placed these vehicles in Special Agent in Charge (SAC)
and Field Office Director (FOD) offices that support the 287(g)
program. In 2008, ICE field offices requested permission to
transfer the vehicles to law enforcement agencies participating in
the 287(g) program utilizing hold harmless agreements. OSLC
conferred with OPLA who affirmed that hold harmless agreements
are insufficient to permit 287(g) participants to use government
property or assets except as specified in the MOA. OSLC
informed the SAC and FOD offices that the vehicles could not be
transferred to participating law enforcement agencies and that the
SAC and FOD offices should continue to use the vehicles
themselves to support the 287(g) program. These vehicles are still
being utilized by ICE field offices to support the delegation of
authority mission.

OSLC will re-evaluate its options, and ascertain how these vehicles
are specifically being utilized. OSLC notes that the MOAs specify
the property and assets the government will procure and provide to
287(g) participants. Initial counsel opinion has affirmed that hold
harmless agreements are insufficient to permit 287(g) participants
to use government property or assets except as specified in the
MOA. If, following our re-evaluation, we determine that we are
unable to legally permit the use, any government property or assets
reserved for use by 287(g) participants and not specified by the
MOAs will be returned to inventory and applied to other ICE
mission areas.



      The Performance of 287(g) Agreements

                    Page 60
OIG Evaluation: This recommendation is unresolved and open.
We agree with ICE’s response to re-evaluate its approach, and
ascertain how the vehicles are specifically being utilized.
However, if ICE determines that the vehicles cannot be used for
the purpose for which were purchased, ICE should seek legal
counsel to ensure proper disposition of those vehicles, rather than
automatically reallocating them for use in other ICE programs.




      The Performance of 287(g) Agreements 


                    Page 61 

Appendix A
Purpose, Scope, and Methodology


                   The Consolidated Appropriations Security, Disaster Assistance,
                   and Continuing Appropriations Act of 2009 (Public Law 110-329),
                   and attached House Report 110-862, require that we report on the
                   performance of 287(g) agreements with state and local authorities.
                   Pursuant to these requirements, we (1) assessed ICE controls over
                   287(g) program implementation, (2) determined whether the terms
                   of 287(g) agreements had been violated by any parties, and
                   (3) evaluated the effectiveness, efficiency, and economy of 287(g)
                   operations.

                   We conducted our fieldwork, which included more than 90
                   interviews, from February to July 2009. We interviewed civil
                   rights and immigration-rights NGO representatives from Arizona,
                   California, Florida, Georgia, Maryland, Massachusetts, North
                   Carolina, and Washington, DC, in addition to ICE and LEA senior
                   officials and staff.

                   We consulted with DHS Office for Civil Rights and Civil Liberties
                   officials on civil rights and civil liberties issues, and technical
                   aspects of immigration law. Office for Civil Rights and Civil
                   Liberties representatives accompanied us on three site visits and
                   assisted with outreach efforts to NGOs.

                   We also accompanied an ICE OPR inspection team on a scheduled
                   site visit, and independently observed program activities at six
                   other 287(g) program jurisdictions. We reviewed 287(g) activities
                   at the following jurisdictions:

                      �	 Benton County Sheriff’s Office, Bentonville, AR
                      �	 City of Springdale Police Department, Springdale, AR
                      �	 Los Angeles County Sheriff’s Office, Los Angeles, CA
                      �	 Maricopa County Sheriff’s Office, Phoenix, AZ
                      �	 Prince William Manassas Adult Detention Center, 

                         Manassas, VA
 

                      �	 Rogers Police Department, Rogers, AR
                      �	 Washington County Sheriff’s Office, Fayetteville, AR

                   We selected locations for our site visits from among program sites
                   that had been operating for more than one year. Selection criteria
                   included (1) the type of program model in place, (2) the number of
                   LEA officers active in the program, (3) the number of 287(g)
                   arrests and removals, (4) indications of possible violations based
                   on reports of civil rights concerns in media reports, court cases,


                           The Performance of 287(g) Agreements 


                                         Page 62 

Appendix A
Purpose, Scope, and Methodology


                   and complaints and investigations, and (5) whether other oversight
                   entities had completed or planned site visits to these locations.

                   We performed extensive document review and analysis of 287(g)
                   agreements, standard operating procedures, directives and policies,
                   budgetary information, personnel security records, training
                   materials, program data, and statistical information.

                   ICE renegotiated its agreements with participating jurisdictions
                   based on an MOA template it released in July 2009. The new
                   agreements contain requirements that were not included in prior
                   agreements, and eliminate others that were. We did not assess
                   compliance with the terms of these new agreements, as they were
                   not in effect at the time of our fieldwork.

                   We conducted this review under the authority of the Inspector
                   General Act of 1978, as amended, and according to the Quality
                   Standards for Inspections issued by the Council of the Inspectors
                   General on Integrity and Efficiency.




                         The Performance of 287(g) Agreements 


                                       Page 63 

Appendix B
Management Comments to the Draft Report



                                                                      Offu:e ofthe Assutanl SeC'Tetof)'

                                                                      u.s. Dtpanmtnl or lIomtllnd S«urilY
                                                                      ;00 116 StreeL SW
                                                                      WashinglOn. DC 1001~


                                                                      u.s. Immigration
                                                                      and Customs
                                                                      Enforcement



                                            December 9,2009


     MEMORANDUM FOR: Carlton I. Mann




     FROM:
                     ASSistant InspcclOr General
                     Orrice of Inspector General

                               Roben F. Dc AntonU;-    /V
                                                         #:              ~



                               DIrector
                               Audit Liaison Orrice

     SUBJECT:                  ICE Input to Ol-IS Response to Orrico of Inspector General Draft
                               Report titled, "The Performance of287(g) Agreements"


     Thank you for providing U.S. Immigration and Customs Enforcement (lCE) with the opponunity
     to revicw and comment 011 the subject Orrice of Inspector Gencral (DIG) Draft Repon.

     In thc past year, ICE has improved the 287(g) program. Many of tile improvemcnts made were
     related directly to program controls and objectives and ensuring the effective and efficient
     operation of the 287(g) program.

     In April 2009, OIG auditors allended the ICE 287(g) confercnce. Many of the on-going
     improvements to the 287(g) program identified <ltthe conference have been included in this
     repon. ICE appreciates their inclusion. ICE also provided a technical response with the
     statistical break OUI of the number of aliens idenlified, processed. and removed by the 287(g)
     program. ICE also provided some peninent examples demonstraling the value of the 287(g)
     program for inclusion in the final repon. ICE believes an evaluation of the program must
     consider the number of criminal alicns identified. processed and removed from our communities
     and the cost savings to the federal govemment frolll the program and using 287(g) officers as a
     force multiplier.

     In Ollr response, ICE identi fied many changes already Illl<lcrway to improve the program. ICE
     requests that 16 of the 33 OIG recommcndations be considered resolved and closed based on the
     action ICE already has takcn. ICE requests thai 16 othcrs be considered resolved and open
     pending receipt of additional documentation to be provided within 90 days from the rclease date
     of thc final repon. Finally. ICE docs not concur with rccommendation #18. but is carefully
     assessing the goal of this rccolllmendation to ensure thai ICE's 287(g) panners prolcct the civil
     libenies of every individual encountered.




                                 The Performance of 287(g) Agreements 


                                                 Page 64
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE In-put to DHS Response to Office of Inspector General Draft Report titled, ''The
     Performance of287(8) Agreements"
     Page 2 of 13

     DIG Recommendation I: "Establish a process to collect and maintain arrest, detention, and
     removal data for aliens in each priorily level for use in determining the success of ICE's focus on
     aliens who pose the greatest risk to public safety and the community."

     ICE Response to QIG Recommendation I: ICE concurs. In June 2009. ICE's Office of State
     and Local Coordination (OSLe) created a dala quality review section to analyze data that 287(g)
     officers put into ICE systems. The data quality review section ensures consistency in reporting
     requirements and analyzes arrest and removal data of aliens identified as part of the 287(g)
     program. ICE will review the results to evaluate each jurisdiction and determine ifit operates
     consistent with the priorilies set forth in the Memorandum of Agreement (MOA). Particular
     attention will be paid to the numbers of criminal aliens identified and the nature of their offenses.

     Further, in August 2009 the ICE OSLC mandated that 287(g) officers populate the Criminal
     Sensitivity Level fields in the Enforcement Case Tracking System (ENFORCE). OSLC is
     currently working with ICE's Secure Communities (SC) and ICE's Detention and Removal
     Operations (ORO) to refine the Criminal Sensitivity Levels to comply with ICE priorities. A
     copy of the memorandum requiring population of the Criminal Sensitivity Level fields in
     ENFORCE is included for your infonnation.

     It is requestcd Recommendation I be considered resolved and closed.

     10 Recommendation 2: "Develop procedures to ensure that 287(g) resources are allocated
     according to rCE's priority framework."

     ICE Response to OIG Recommendation 2: ICE concurs. OSLC is developing a strategic plan
     that directly aligns its goals and objectives, and those ofthc 287(g) program, with ICE and OHS
     priorities. Before ICE enters into a new 287(g) MOA, the justification is reviewed by the 287(g)
     Advisory Commiuee and ICE's Office of the Assistant Secretary (OAS) to ensure the expansion
     of the 287(g) program aligns with the priorities and objectives of ICE and OHS.

     OSLe's capturing of statistical information assists ICE in measuring adherence to ICE priorities
     and also advances the mission priority of apprehending criminal aliens. Finally, ICE measures a
     program's effectiveness largely based upon the number and nature of aliens identified for
     removal by 287(g) officers. OSLC has drafted a revised perfonnance measure that will consider
     the nalUre of the criminal offense based on the severity ofcrime (Levels I, 2, and 3). OSLe will
     establish a baseline and communicate targets for each severity level. The targets will reflect both
     prioritizations based on crime level as well as average volume of encounters within each crime
     level.

     It is requested Recommcndation 2 be considered resolved and open pending OIG receipt of
     documcntation.

     DIG Recommendation 3: "Establish and implement TECS data entry requirements that renect
     invcstigative effons and related prosecutions associated with the 287(g) program."

     ICE Response to OIG Recommendation 3: ICE concurs. The recommendation was completed
     on May 9, 2009, when the ICE Office of Investigations (01) and ORO Oircctors signed a
     memorandum requiring 01 and ORO offices to use the Treasury Enforcement Communication




                                  The Performance of 287(g) Agreements 


                                                   Page 65
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to DHS Response to Office ofInspector Genen.J Draft Report titled, '"The
     Perfonnance of287OO Agreements"
     Page 3 of 13

     System (TEeS) program codes specific to the 287(g) program. Program code YTO will be used
     to capture administrative arrests and program code 6LL 10 capture investigations and
     prosecutions. A copy afthe memorandwn requiring use aCthe TECS program codes is included
     for your infonnation.

     It is requested Recommendation 3 be considered resolved and closed.

     orG Recommendation 4: "Establish a process to ensure effective supervision of287(g) officers
     and immigration enforcement operations."

     ICE Response to orG Recommendation 4: ICE concurs. The OSLe and the ICE Office of
     Training and Development (OTD) are developing a SupervisorylManager training curriculum for
     ICE personnel who oversee 287(g) officers in the field. ICE anticipates a three-day course thai
     addresses all aspects and responsibilities oflCE and our partners under the MOA. The training
     will be operational in 2010. Further. OSLe FYIO perfonnance measures include hcadquarten
     oversight orthe supervisory functions for 287(g). OSLC program managers will be in
     continuous contact with the field personnel to ensure adequate and effective supervision oflaw
     enforcement agencies (LEA). Additionally, OSLe is developing a comprehensive
     communications plan to facilitate widespread undentanding of ICE supervisory roles. This
     communications plan will be ready for implementation by February 2010. The plan will
     incorporale a standard processes for creating, reviewing and delivering clear, consistenl
     messages about the 287(g) program, including the goals and mission of the program, the benefits
     of the program, and recent success stories. The communications plan will also include a
     stakeholder assessment to identify and assess its needs and concerns. This assessment will help
     OSLC appropriately tailor communications to address these needs and concerns. Additionally,
     the communications plan will identify and assess the appropriate channels (e.g., websites,
     conferences, newsletlen, etc.) for infonning stakeholden about 287(g) and expanding access to
     and availability ofcritical facts about the program and associated operations. OSLC will
     coordinate with OTD to ensure the plan is included in future supervisory training modules.

     It is requested Recommendation 4 be considered resolved and open pending OIG receipt of
     additional documentation.

     OIG Recommendalion 5: "Develop controls to ensure thai supervisory responsibilities for
     287(g) supervisors are considered when detennining staffing ralios in ICE field offices."

     ICE Response to OlG Recommendation 5: ICE concurs. ICE strives to effectively balance the
     nwnber of supervisors and employees. The addition of287(g) OffiCCB in the field creates
     workforce challenges. ICE has received funding thai will allow additional supervisory positions
     within the 287(&) program. ICE has distribuled a t01a1 of23 program manager positions 10 field
     offices to support existing 287(&) programs. These supervisors will provide daily ovmight of
     287(g) MOA within their area ofresponsibilily, review administrative charging documents,
     respond 10 287(g)-related taskings, mc:d wilh LEA partners and community stakeholders about
     287(g) issues, serve as the primary poinl ofcontact between the field and HQ OSLC on 287(g)
     related issues, train LEAs about ICE's mission and priorities, and conduct ICE ACCESS
     outreach. ICE will deploy the additional supervisory positions (11 for or and 12 for ORO) to
     field offices with multiple 287(g) agreements or the potential for multiple agreements. Using
     TECS and manual reporting mechanisms., OSLC will closely monitor the hours devoted to




                                 The Performance of 287(g) Agreements 


                                                Page 66
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to DHS Response to Office of Inspector General Draft Repon titled, ''The
     Perfonnance of287(g) Agreements"
     Page4of13

     287(g) activities by ICE supervisory personnel. These additional positions will help balance the
     ration of supervisors. ICE will strive to continue expanding the number of supervisors as the
     287(g) program matures.

     II is requested Recommendation 5 be considered resolved and closed.

     OIG Recommendation 6: "Ensure tha1281(g) supervision is provided by aulhorized staffwilh
     the appropriate knowledge, skills. and abilities."

     ICE Response 10 CIG Recommendation 6: ICE concurs. The OSLe and om are developing a
     SupervisorylManagcr training curriculum for ICE permnnel who ovcnee 287(g) officm in the
     field. The training is anticipated 10 be approximately three days. The training will cover all
     aspects and responsibilities of the MOA for ICE and our partners. All 287(g) ICE managers and
     supervisors will be required to complete the training, which will be operational in 2010.

     It is rcquested Recommendation 6 be considered resolved and open pending OIG receipt of
     additional documentation.

     DIG Recommendation 7: "Develop and implement 287(g) field supervision guidance that
     includes.. at a minimum (1) the frequency and type ofcontact required between 287(g) officers
     and ICE supervisors; (2) the preparation, review, and approval of operational plans for
     community-based immigration enforcement activities; and (3) performance feedback
     requirements for 287(g) officers."

     ICE Response to DIG Recommendation 7: ICE concurs. OSLC is creating a communications
     plan to improve our interactions with community groups and all of our stakeholders. The plan
     will help ICE determine how to communicate, when to cammunicate, and about what issues to
     cammunicate. The plan will outline best communication practices and benefits. The goal is to
     ensure stakeholders understand the 287(g) program's policies and initiatives. The
     communications plan is scheduled 10 be completed by February 2010 and will address the issues
     raised in the draft: report. The communications strategy will incorporate a standard process for
     crealing, reviewing, and delivering clear, consistent messages about the 287(g) program,
     including the goals and mission of the program. the benefits of the program, and recent success
     stories. The cammunications strategy will also include a stakeholder assessment to identify and
     assess stakeholders' needs and concerns.

     It is requested Recommendation 7 be considered resolved and open pending DIG receipt of
     additional documentation.

     DIG Recommendation 8: "Establish and implement a comprehensive process for conducting
     periodic reviews, as well as reviews on an as-needed basis, to determine whether to modify,
     extend, or terminate 287(g) agreements. At a minimum, this process should include an
     assessment of (I) current or previous concerns expressed by field office staff; (2) media attention
     or community concerns that contribute to negative or inappropriate conclusions about the 287(g)
     program; (3) lawsuits or complaints; (4) potential civil rights and civil liberties violations; and
     (5) ICE's ability 10 provide effective supervision and oversight:"




                                 The Performance of 287(g) Agreements 


                                                 Page 67
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to DHS Response to Office of Inspector General Draft Report titled, 'The
     Perronnance of287(g) Agreements"
     Page 5 orJ3

     ICE Response to DIG Recommendation 8: ICE concurs. In FY 2008, the ICE Office of
     Professional Responsibility (OPR) established a 287(g) Review Program to review the leons of
     the MQAs. OSLC relies on OPR inspections reports to support decisions to modify. extend, or
     Itnninate 287(g) agreements. Further. OSLC communicates regularly with LEA counterpans,
     non-government organizations (NGOs). and the DHS Office for Civil Rights and Civil Liberties
     (CRel) to collect feedback about the 287(g) program. The fonnalization of communications to
     LEAs is included in the OSLC communications plan that will be completed in February 2010.

     It is requested Recommendation 8 be considered resolved and open pending DIG receipt of
     additional documentation.

     DIG Recommendation 9: "Require 287(g) program siles 10 maintain steering commiuees with
     external stakeholders, with a focus on ensuring compliance with the MOA."

     ICE Response to OIG Recommendation 9: ICE concurs. As previously noted, OSLC is
     developing a communications plan which will incorporate all channels for delivering and
     receiving key communications, including steering committees. The communications strategy
     will be implemented in 2010, and will include a communications planning matrix to identify
     critical communications activities, when they need to be executed, and the point-of-contact
     responsible for executing the activities.

     It is requested Recommendation 9 be considered resolved and open pending OIG receipt of
     additional documentation.

     OIG Recommendation 10: "Establish a process to periodicallycross-check OPR, OSLC, and
     OCIO records to continn 287(g) officers' eligibility and suitability to exercise authorities granted
     under 287(g) MOAs."

     ICE Response to 010 Recommendation 10: ICE concurs, with one minor clarification.
     Presently, 287(g) officers are vetted only for suitability purposes, not for issuing federal security
     clearances as stated in this rhlding. ICE has established a system to ensure that suitability
     reviews are conducted ror all 287(8) officers. This process is addressed in the ICE policy
     established in October 2007 titled "ICE Screening Criteria for Federal, State, or Local Law
     Enforcement, Correctional, and Mission Suppon Personnel Supponing ICE Programs." ICE
     acknowledges that, prior to the establislunent of this policy, while attempting to meet the
     challenges associated with the exponential growth oflhe program, Office of Chieflnfonnation
     Officer, OPR, and OSLC rosters of287(g) nominees and officers were not reconciled. This lack
     of reconciliation, which is described quantitatively in the second and third paragraphs of page 18,
     involves less than one percent of the 287(g) population vetted to date. Additionally, in May
     2007, when OPR assumed the responsibility for vetting 287(g) candidates, inactive 287(8)
     officers were not vetted. This accounts for 48 inactive officers, or 84 percent, of the 57 noted on
     page 18 of the repon. The remaining nine officers in OSLC records have been identified; three
     have been vetted for suitability, and a vetting request was forwarded to OPR for the remaining
     six. To funher ensure proper access is granted only to qualified panicipanlS, OSLC is creating a
     policy titled "Suspension and Revocation of a Designated immigration Officer's 287(g)
     Authority." This policy will formalize the current cross checks perfonned by the OSLC training
     manager on activelinactive 287(g) officers listed with OPR.




                                 The Performance of 287(g) Agreements 


                                                  Page 68
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input 10 DHS Respo~ 10 Office of Inspector Gc:nen.l Draft Report tilled. -me
     Performance of287(g) Agreements
     Page 6 of 13

     It is requested Recommendation 10 be considered resolved and open pending DIG receipt of
     additional documentation.

     QIG Recommendation 11: "Establish a process to ensure that LEAs report to OPR any
     allegations or complaints against 287(g) officers and other LEA personnel alleged to have
     improperly perfonned immigration enforcement activities. as well as the results of any
     subsequent investigations."

     ICE Response to DIG Recommendation 11: ICE concurs. The recommendation was completed
     in July 2009 when the new MOA template was published. The MOA requires participating
     agencies 10 infonn ICE of all complaints regarding their 287(g) officers as well as the outcome
     orthose complaints. A copy ofthe new MOA template is included for your ready reference.

     It is requested Recommendation II be considered resolved and closed.

     OIG Recommendation 12: "Establish and implement procedures on how the results of
     complaints. allegations., and subsequent investigations against LEA personnel conducting
     immigration enforcement activities should be maintained and used as part ofthc suitability and
     recertification pnxesses...

     ICE Response to OIG Recommendation 12: ICE concurs. OSLC has developed a
     comprehensive pnxedure through which it delivers the results of all OPR inspections and the
     respective areas for improvement to ICE field components for action. All inspection and
     administrative investigative findings l'rom OPR, CRCl.. and the DIG will be evaluated
     thoroughly by OSLC management to best detenninc the feasibility of all ICE 287(g)
     partnerships, whether potential or current in stalus. The same process is used to document
     individual LEA officer derogatory findings. A copyofthe procedure for addressing OPR 287(g)
     reports is included for your infonnation.

     It is requested Recommendation 12 be considered resolved and closed.

     OIG Recommendation 13: "Establish specific opemling protocols and requirements for
     operational variances identified in task force and jail enforcement program models."

     ICE Response to OIG Recommendation 13: ICE concurs. The recommendation was completed
     in July 2009 with issuance ofthe new MOA tcrnplate. Appendix D of the revised MOA was
     drafted to provide nexibility to address issues of local concern, including the variances cited in
     the OIG report. ICE can negotiate with jurisdictions before entering into 287(g) partnerships to
     address supervisory arrangements, state and local laws. and other specific needs or a particular
     agency.

     It is requested Recommendation 13 be considered resolved and closed.

     OIG Recommendation 14: "'Study the feasibility and appropriateness of increasing the frequency
     ofOPR 287(g) inspections, and report findings to the OIG."




                                 The Performance of 287(g) Agreements 


                                                 Page 69
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to DHS Response to Office of Inspector General Draft Report tilled, '1"he
     Performance of287(g) Agreements"
     Page 7ofl3

     ICE Response to DIG Recommendation 14: ICE concurs. In 2009, ICE decided 10 increase the
     frequency ofOPR 287(g) inspections. In FYIO QPR will ensure that 48 or64 of the 287(g)
     programs, or 75 percent, will have been reviewed.

     II is requested Recommendation 14 be considered resolved and open pending OIG receipt of
     additional documentation.

     OIG Recommendation 15: "Require 287(8} applicants to provide information about past and
     pending civil rights allegations, and incorporate a civil rights and civil liberties review as part of
     the documented 287(g) site selection and MOA review process."

     ICE Response to OIG Recommendation 15: ICE concurs. The recommendation was completed
     in August 2009 when OSLC created a "candidate questionnaire" for all LEA officers anending
     287(g) training. Additionally, DHS CRCL is now an active participant in lhe OSLe Internal
     Advisory Committee. A copy of the questionnaire is included for your infonnation.

     l! is requested Recommendation I S be considered resolved and closed.

     DIG Recommendation 16: "Include a representative on the advisory committee to provide
     insights into civil rights and civil liberties issues as part ofthe approval process."

     ICE Response to OIG Recommendation 16: ICE concurs. The recommendation was completed
     in October 2009 when DHS CRCL began participating in Ihe OSLe Internal Advisory
     Committee.

     It is requested Recommendation 16 be considered resolved and closed.

     OIG Recommendation 17: "Develop a process to ensure that infonnation submitted from ICE
     field offices as pan of the application review process is fully taken into consideration before a
     final decision is made. This recommendation should include provisional approvals that require
     resource considerations to ensure proper supervision and oversight."

     ICE Response to OlG Recommendation 17: ICE concurs. The recommendation was completed
     when OSLC instituted an Internal Advisory Committee. The first meetins of the group occurred
     in May 2009. The OSLC Advisory Committee assesses and reviews field office
     recommendations about pending 287{g) MOA applications. The Advisory Committee is
     comprised ofstakeholder representatives from ICE 01, ORO, OTO, SC. Office of Principle
     Legal Advisor (OPLA) Office ofChieflnfonnation Officer. Office of Congressional Relations,
     Office of Public Affairs. and DHS CRCL

     II is requested Recommendation 17 be considered resolved and closed.

     OIG Recommendation IS: ..Establish collection and reponing standards that provide objective
     data to increase monitoring of methods panicipatingjurisdictions use in carrying out 287{g)
     functions, and their effect on civil liberties. Collection and reponing requirements should
     include, at a minimum (l) lhe circumstances and basis for TFO contacts with the public, (2) Ihe
     race and ethnicity of those contacted. and (3) the prosccutorial andjudicial disposition of287(g)
     arrests."




                                  The Performance of 287(g) Agreements 


                                                   Page 70
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to OHS Response 10 Office orJnspector General Draft Report titled, 1'he
     Performance of287(g) Agreements"
     Page 8 ofl3


     ICE Response 10 OIG Recommendation 18: ICE does not concur but is carefully assessing the
     goal of Ihis recommendation to ensure that ICE's 287(g) panners protect the civil liberties of
     every individual they encounter. 010 recommends the collection ofdata that milTOr5 thai of a
     consent decree applicable to agencies that are found to have engaged in racial profiling. This
     would require the collection of data beyond thaI which DHS and DOJ require of their own law
     enforcement ofJi~rs and agencies. Although ICE strongly opposes racial profiling and adheres
     fully 10 all data collection requirements of federallaw,lhe collection arthis data raises logistical
     issues including whether a TFO would report all interactions, just interactions predicated solely
     on 287(g) authority, and how the TFO would distinguish in a meaningful way while perfonning
     his or her daily duties.

     OIG Recommendation 19: "Determine whether the current timeframe for civil rights law
     training is adequate to achieve appropriate coverage, and modify timeframes and coverage as
     needed to ensure that sufficient training is provided:'

     ICE Response to 010 Recommendation 19: ICE concurs. The 287(g) basic training currently
     has five blocks of instruction related to civil rights and civil liberties. Starting in FY201 0, OSLC
     requires that 287(g) officers complete a "Use of Race" Virtual University course on an annual
     basis to retain their certification. The civil rights training in 287(g) addresses those provisions in
     the 4110, Sdl, 6do, and 14110 Amendments. The training covers criminal and administrative mailers,
     including an alien's right to counsel and the distinctions in that right. The training details the
     Federal statutes that address the deprivation of civil rights and the consequences for depriving
     people iftheir rights. This training supplements all of the law enforcement training that 287(g)
     officers already have to perfonn their daily jobs. The 287(g) training program supplements that
     training with information unique to immigration enforcement and applicable federal laws. The
     training was tailored to the target audience of already experienced law enforcement officers.

     It is requested Recommendation 19 be considered resolved and closed.

     OIG Recommendation 20: "Ensure that 287(g) basic training includes coverage of MOAs and
     public outreach and complaint procedures."

     ICE Response to 010 Recommendation 20: ICE concW'S. On the fim day of training, OPLA
     instructors train participating officers about the terms ofthe MOA. Although ICE provides this
     training. ICE also expects that our 287(g) panners also ensure that their panicipating officers
     understand the responsibilities specified in the MOA. Public outreach principles llRi covered
     extensively in the "Cross Cultural Communication" block of instruction in the 287(g) training
     program. This information was provided to the OIG during the field work phase. Instruction in
     ''Complaint Procedures" was included in the training program with additional instruction in
     complaint procedures and officer integrity. A copy of the complaint procedures module
     outlining the OIG's role in investigating allegations of misconduct by state and local 287(g)
     officers is included for your information.

     It is requested Recommendation 20 be considered resolved and closed.

     OIG Recommendation 21: "Enhance the current 287(g) training program to provide
     comprehensive coverage of immigration systems and processing. At a minimum, this should




                                  The Performance of 287(g) Agreements 


                                                   Page 71
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Injlut to DHS Response 10 Office of Inspector General Draft Report titled. "The
     Perfonnance of287(g) Agreements"
     Page 9 of 13

     include hands-on experience during the 287(g) basic training course, on-the-job training, and
     periodic refresher training."

     ICE Response to 010 Recommendation 21: ICE concurs. In February 2009, Q$LC and oro
     created a one week refresher training for active 287(g) officers who wanted additional
     Immigration law and ICE systems training. In November 2009, the 287(g) basic training
     academy began using a state-or-the art simulated detainee processing and holding center. This
     allows 287(g) officers to experience various scenarios that occur when processing aliens.
     Currently, 287(g) students receive extensive training in immigration systems and alien
     processing. 287(g) students depart the ICE Academy with at least three practice folders to use as
     reference materials for fUlure processing. Students work with these folders in class during the
     "A-File Review" block of instruction. Students are also provided a number ofjob aids offering
     step-by-step guides to processing aliens in the field. At any time 287(g) officers can access the
     online distance learning refresher courses on the ICE Vinual University. Additionally, OSLC is
     creating an on the job training program manual for graduated officers with an expected delivery
     date of March 2010.

     It is requested Recommendation 21 be considered resolved and open pending OIG receipt of
     additional documentation.

     OIG Recommendation 22: "Ensure that an appropriate level of coverage on immigration
     benefits, asylum, and victim and witness protections is included as part of the 287(g) basic
     training agenda."

     ICE Response to OIG Recommendation 22: ICE concurs. The "Special Status Aliens" and the
     "Victim Assistance" elements of the 287(g) basic training program include an overview of
     asylum and victim and witness protections. Students are instructed in the proper methods for
     assisting victims of human lrafficking or abuse or other vulnerable aliens. The coun's holding in
     American Baptist Churches v. Thornburg is specifically explained and discussed in the
     "Alternate Orders of Removal" block of instruction. The assessment ofa student's ability to
     meet the training objectives throughout the entire course is measured in multiple-choice exams
     and a series of 16 hours of hands-on, realistic, scenario-based practical exercises conducted in
     the final week of training. This infonnation was provided to the OIG during the field work
     phase.

     It is requested Recommendation 22 be considered resolved and closed.

     OIG Recommendation 23: "Establish and issue guidance to field office staJTfor 287(g} officer
     annual recertification training that emphasizes completion of online refresher training courses."

     ICE Response 10 OIG Recommendation 23: ICE concurs. OSLC is in the process of drafting
     and disseminating a policy titled "Annual Reccnilication of Designated Immigration Officers'
     Delegated Authority." This policy is currently pending final approval.

     It is requested Recommendation 23 be considered resolved and open pending OIG receipt of
     additional documentation.




                                 The Performance of 287(g) Agreements 


                                                 Page 72
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to DHS Response 10 Office of Inspector General Draft Report titled, ''The
     Perfonnance of287(g) Agreements"
     Page 100f13

     OIG Recommendation 24: "Designate field office responsibilities for monitoring and enforcing
     compliance with training guidance to include., at a minimum. issuing and enforcing revocation
     notices for 287(g) officers who do not complete required ttaining."

     ICE Response to OIG Recommendation 24: ICE COl'lCW'$. 051£ is in the process ofdrafting and
     disseminating a policy titled ''Suspension and Revocation ofa Designated Immigration Officer's
     287(g) Authority." This policy is currently pending final approval.

     It is requested Recommendatiun 24 be considered resolved and open pending orG receipt of
     additional documentation.

     010 Recommendation 25: "Develop and implement clear guidelines for using interpreter
     support to assist with immigration duties and responsibilities."

     ICE Response to DIG Recommendation 25: ICE concurs. ICE trains 287(g) students about the
     importance of interpreters in immigration enforcemenL The training addresses the use of
     interpreters during the "'Sworn Statements" block of instruction. The 281(g) graduates are
     granted access to online independent study foreign language tutorials. This information was
     provided to the DIG during the field work phase. Further, in July 2009 OSLC provided LEAs
     upon request, access to the "DHS Interpreters Service." On October 29, 2009, in an email
     communication, ICE offered 281(g) state and local partner's interpretation resources in
     conjunction with the Department of Justice's (DOJ) Civil Rights Division. DOJ also provided
     additional materials 10 include a 'flip card' wilh words in multiple languages 10 help identify
     what language a person speaks. A hard copy of the communication and additional materials were
     mailed out separately in November 2009. AJl281(g) partners were reminded of the legal
     obligations associated with accepting federal funds and the provision ofJanguage assistance.

     It is requested Recommendation 25 be considered resolved and closed.

     OlG Recommendation 26: "Establish a process to provide the public and other stakeholden with
     comprehensive information about the 287(g) program and associated operations."

     ICE Response to OIG Recommendation 26: ICE concurs. OSLC is developing a
     communications plan to be implemented in February 201 O. The communications plan will
     incorporate standard processes for creating, reviewing and delivering clear, consistent messages
     about the 281(g) program, including the goals and mission of the program, the benefits of the
     program, and recent success stories. The commWlications plan will also include a stakeholder
     assessment to identify and assess its needs and concerns. OSLC has also made modification to
     its internet site. Documentation is readily available to the public, which includes redacted copies
     of all existing MOAs.

     It is requested Recommendation 26 be considered resolved and open pending Ola receipt of
     additional documentation.

     OIG Recommendation 21: "Ensure the accuracy of information disseminated to the public about
     the goals oCtile 287(g) program. its various operations. and how immigration enforcement
     activities are carried out in the actual working environment."




                                 The Performance of 287(g) Agreements 


                                                 Page 73
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE InpullO DHS Response to Office of Inspector General Draft Report tilled. "The
     Performance of287(g) Agreements"
     Page 11 of13


     ICE Response to DIG Recommendation 27: ICE concurs. As previously noted. OSLC is
     developing a communications plan for implementation by February 201 O. This will outline roles
     and responsibilities and incorporate standard processes for creating and delivering clear,
     consistent messages about the 287(g) program. such as newsletters with success stories or
     important slatistics highlighting the benefits of the program. The processes will include
     appropriate steps for reviewing communications for accuracy 10 establish a layer of
     accountability. Additionally,the strategy will identify opportunities to strengthen internal
     communications to help ensure that internal stakeholders are receiving and disseminating
     accurate information abouI287(g). The strategy will also expand outreach and interaction with
     key stakeholders, such as conferences, and conference calls, to strengthen feedback and enable
     OSLC to identify and address misinfonnation about the program in a timely manner.

     It is requested Recommendation 27 be considered resolved and open pending OIG receipt of
     additional documentation.

     OIG Recommendation 28: "Publish 287(g)<ompliant reponing procedures on ICE's public
     website, and ensure that these procedures are posted in panicipating LEA buildings, and shared
     at community meetings:'

     ICE Response to OIG Recommendation 28: ICE concurs. The recommendation was completed
     on October 2009, when ICE posted, on the ICE.govIOSLC website, infonnation about how to
     file a 287(g) complaint. The process is the same found in Appendix B of the MOA.

     It is requested Recommendation 28 be considered resolved and closed.

     OIG Recommendation 29: "Require 287(g) officers to identify themselves and display their
     credentials during federal immigration arrests, before initiating interviews regarding alien status
     and removability, and as pan ofother immigration processing activities."

     ICE Response to OIG Recommendation 29: ICE concurs. At graduation, all candidates are
     awarded ICE 287(g) credentials. During the training program, all 287(g) students are advised
     that, as the first mandatory step in any official encounter, they must identify themselves by name,
     agency, and title.

     It is requested Recommendation 29 be considered resolved and closed.

     OIG Recommendation 30: "Develop training and provide basic program infonnation for LEA
     managers who maintain an oversight role for 287(g) officers in order to increase their
     understanding of the program and encourage their support of287(g) activities:'

     ICE Response to 010 Recommendation 30: ICE concurs. As previously nOled, the OSLC and
     OTD are creating two new 287(g) training cumculums. The first training is for ICE supervisors,
     the second training is for LEA supervisors who have not attended the 287(g) basic training.
     These two curriculums are still in development.

     It is requested Recommendation 30 be considered resolved and open pending OIG receipt of
     additional documentation.




                                 The Performance of 287(g) Agreements 


                                                 Page 74
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input to DHS Response 10 Office of Inspector General Drat\ Report titled, 'The
     Perronnance of287(g) Agreements"                                                      .
     Page 120[\3

     DIG Recommendation 31: "Establish and implement standard immigration syslem access
     profiles for 287(g} officers to ensure that officers have the access needed to perform immigration
     functions. These access profiles should be customized by program model to address the different
     functions that task force officers and jail enforcement officers perform,"

     ICE Response to OIG Recommendation 31: ICE concurs. In July 2009 OSLe assumed the
     responsibility ofcreating PIeS accounts and ENFORCE profiles for all 287(g) students. This
     was in response to complaints from field supervisors that 287(g) officers were nol given all of
     the accesses they needed   10   perform their mission.

     It is requested Recommendation 31 be considered resolved and closed.

     OIG Recommendation 32: "Develop a process for performing regular checks to ensure that
     aliens identified through the 287(g) program are not held in unauthorized facilities while in ICE
     custody."

     ICE Response to OIG Recommendation 32: ICE concurs. OSLC will work with ORO to ensure
     that after persons identified through the 287(g) program are taken into ICE custody, only
     authorized and inspected facilities are used to detain individuals. This process will be completed
     within 120 days.

     It is requested Recommendation 32 be considered resolved and open pending OIG receipt of
     additional documentation.

     OIG Recommendation 33: "Evaluate ICE's position on the use of287(g) vehicles by
     participating LEA officers to determine whether the vehicles can be used for the purpose for
     which they were purchased. Ifnot, identify underutilized 287(g) vehicles, and take appropriate
     steps to use or dispose of those asset5 in accordance with applicable law."

     ICE Response to OIG Recommendation 33: ICE concurs.

     In FY2006 - FY2008, the 287(g) delegation of authority program purchased 14 sedans and 75
     transpon vans for 01 and ORO. 01 and ORO then placed these vehicles in Special Agent in
     Charge (SAC) and Field Office Director (FOD) offices that support the 287(g) program. In
     2008, ICE field offices requested permission to transfer the vehicles to law enforcement agencies
     participating in the 287(g) program utilizing "hold hannless" agreements. The Office of State
     and Local Coordination conferred with the Office of the Principal Legal Advisor (OPU) who
     affinned that "hold harmless" agreements are insufficient to pennit 287(g) participants to use
     government property or assets except as specified in the MOA. OSLC infonned the SAC and
     FOD offices that the vehicles could not be transferred to participating law enforcement agencies
     and that the SAC and FOD offices should continue to use the vehicles internally to suppon the
     287(g) program. These vehicles are still being utilized by ICE field offices to suppon the
     delegation ofauthority mission.

     OSLC will re-evaluate its options on this topic and ascertain how these vehicles are specifically
     being utilized. OSlC notes that the MOAs specify the property and assets the government will
     procUtc and provide to 287(g) participants. As stated ahove, initial counsel opinion has affinned
     that "hold hannless" agreements are insufficient to permit 287(g) participants to use government




                                     The Performance of 287(g) Agreements 


                                                    Page 75
 

Appendix B
Management Comments to the Draft Report



     Subject: ICE Input 10 DHS Response to Office of Inspector General Draft Report tilled, "The
     Perfonnance of287(g) Agreements"
     Page 13 of 13

     property or assets except as specified in the MOA. If. following our re-evaluation, we detennine
     that we are unable to legally permit the use; any government property or assets reserved for use
     by 287(g) participants and not specified by the MOAs will be returned 10 inventory and applied
     to other ICE mission areas.

     II is requested that Recommendation 33 be considered resolved and open pending OIG receipt of
     additional documentation.

     Should you have questions: or concerns, please contact Megan Reedy, DIG ponfolio manager at
     (202)732-4185 or bye-mail atMegan.Reedy@dhs.li!Ov.




                                The Performance of 287(g) Agreements 


                                                Page 76
 

Appendix C
287(g) Application and Approval Process

        ICE’s 287(g) Application and Approval Process
                          State and local law enforcement agencies interested in launching a
                          287(g) program are required to submit a request to ICE. ICE field
                          offices conducted field surveys to ensure that 287(g) applicants
                          were knowledgeable of the program requirements, and that
                          requests for participation had been vetted by appropriate state and
                          local government officials. These surveys also provided
                          information on the potential number of illegal aliens who could be
                          removed from the country through the program, and the level of
                          program support needed from ICE field offices operating in the
                          area. ICE headquarters officials considered ICE field office
                          recommendations, along with survey results, in determining
                          whether to pursue a 287(g) agreement with the requesting law
                          enforcement agency.

                          ICE received five applications for participation in the 287(g)
                          program from its establishment in 2003 until FY 2005.20 During
                          FYs 2006 and 2007, state and local interest in the 287(g) program
                          increased, triggering a significant rise in applications. In FYs 2006
                          and 2007, ICE received 18 and 71 applications, respectively.

                          In response to expanding interest in the 287(g) program, ICE
                          modified the application and selection process to incorporate other
                          ICE program initiatives that might better address community
                          needs. Under the ICE ACCESS program, state and local law
                          enforcement agencies that apply for the 287(g) program can select
                          from among 13 other ICE services and programs.21

                          State and local law enforcement agencies apply for participation in
                          the 287(g) program via a formal request letter to ICE. Applicants
                          are required to complete an ICE ACCESS needs assessment to
                          provide specific information about the jurisdiction, including its
                          detention facilities; involvement in ICE task forces; and frequency
                          of encounters with fraudulent immigration documents, counterfeit
                          goods, and foreign-born gang members operating in the area. ICE
                          factors in this information to assess the jurisdiction’s immigration
                          enforcement challenges, and whether any other ICE ACCESS
                          programs and services would be more appropriate in addressing its
                          needs.



20
   Prior to ICE’s establishment, the former Immigration and Naturalization Service received and considered 

287(g) applications. 

21
   Refer to appendix D for a complete list of ICE ACCESS programs and services. 


                                  The Performance of 287(g) Agreements

                                                 Page 77
Appendix C
287(g) Application and Approval Process

                   ICE field offices provide recommendations on whether ICE should
                   pursue a 287(g) agreement with a requesting jurisdiction. Field
                   recommendations are evaluated by an advisory committee
                   established in early 2009. This advisory committee consists of
                   representatives from 15 units within ICE, including DRO, OI,
                   OCIO, OPR, and the Office of Training and Development. The
                   committee develops and forwards consensus recommendations to
                   the ICE Assistant Secretary on whether 287(g) collaborations with
                   applicant LEAs would benefit ICE and the local community. The
                   ICE Assistant Secretary reviews advisory committee
                   recommendations before making a final determination.




                         The Performance of 287(g) Agreements 


                                       Page 78 

Appendix D
ICE ACCESS Programs

        ICE ACCESS Programs
                          In addition to the 287(g) program, ICE operates the following
                                                                     22
                          programs under the ICE ACCESS umbrella:

                          Asset Forfeiture/Equitable Sharing

                          The ICE Asset Forfeiture Program provides funding to state, local,
                          and foreign law enforcement agencies that participate jointly in
                          ICE investigations leading to seizures and forfeitures. ICE uses
                          asset forfeiture to disrupt criminal enterprises in areas such as
                          money laundering, bulk cash smuggling, worksite enforcement,
                          and alien- and drug-smuggling investigations. ICE provides seized
                          and forfeited funds and equipment to state, local, and foreign law
                          enforcement counterparts through the Department of Treasury's
                          Equitable Sharing Program. In addition to equitably sharing
                          assets, some state and local law enforcement agencies are eligible
                          to receive reimbursement for overtime and other limited
                          investigative expenses associated with joint investigations.

                          Border Enforcement Security Task Forces

                          Border Enforcement Security Task Forces consist of DHS law
                          enforcement agencies working cooperatively with other law
                          enforcement entities to develop comprehensive approaches to
                          identifying, disrupting, and dismantling criminal organizations
                          posing significant threats to border security. These task forces are
                          designed to increase information sharing and collaboration among
                          participating agencies, and currently operate in Arizona,
                          California, Florida, Michigan, New Mexico, New York, Texas, and
                          Washington, as well as in Mexico City, Mexico.

                          Criminal Alien Program

                          The Criminal Alien Program focuses on identifying criminal aliens
                          who are incarcerated within federal, state, and local facilities,
                          ensuring that they are not released into the community by securing
                          a final order of removal prior to the termination of their sentence.

                          Customs Cross-Designation (Title 19)

                          Title 19 U.S.C. 1401(i) allows ICE to cross-designate federal, state,
                          local, and foreign law enforcement officers as “customs officers”
22
  The following program descriptions are derived from information on ICE websites:
http://www.ice.gov/partners/dro/iceaccess.htm, and http://www.ice.gov/oslc/iceaccess.htm.

                                  The Performance of 287(g) Agreements

                                                 Page 79
Appendix D
ICE ACCESS Programs

                and grant them the authority to enforce U.S. customs law. Cross-
                designated task force officers support ICE investigative missions to
                combat narcotics smuggling, money laundering, human smuggling
                and trafficking, and fraud-related activities and disrupt and
                dismantle criminal organizations threatening U.S. borders. In
                October 2009, ICE reported that it had cross-designated
                approximately 300 law enforcement officers with Title 19 authority.

                Document and Benefit Fraud Task Forces

                ICE Document and Benefit Fraud Task Forces target, dismantle,
                and seize illicit proceeds of criminal organizations that threaten
                national security and public safety through immigration fraud.
                These task forces provide platforms to launch anti-fraud initiatives
                using existing manpower and authorities. Through the task forces,
                ICE partners with other federal, state, and local law enforcement
                agencies. These task forces focus on detecting, deterring, and
                disrupting both benefit fraud and document fraud. As of August
                2009, these task forces operated in 17 locations around the Nation.

                Fugitive Operation Teams

                The primary mission of fugitive operation teams is to identify,
                locate, apprehend, process, and remove fugitive aliens from the
                United States, with the highest priority placed on those who have
                been convicted of crimes. Fugitive aliens are those who have
                failed to leave the United States based upon a final order of
                removal, deportation, or exclusion; or who have failed to report to
                ICE after receiving notice to do so. Fugitive operation teams’ goal
                is to eliminate the backlog of fugitive aliens and ensure that the
                number of aliens deported equals the number of final orders of
                removal issued by the immigration courts in any given year.
                Outside law enforcement agencies assist fugitive operation teams
                by participating in local Joint Fugitive Task Forces.

                Intellectual Property Rights Coordination Center

                The Intellectual Property Rights Coordination Center is the U.S.
                government’s central point of contact in the fight against violations
                of intellectual property rights and the flow of counterfeit goods
                into the U.S. The multiagency center is responsible for
                coordinating a unified U.S. government response regarding
                intellectual property rights enforcement issues, with an emphasis
                on protecting the public health and safety of U.S. consumers,
                investigating major criminal organizations engaged in transnational
                intellectual property crimes, and pursuing the illegal proceeds
                      The Performance of 287(g) Agreements

                                    Page 80
Appendix D
ICE ACCESS Programs

                derived from the manufacture and sale of counterfeit merchandise.
                ICE provides investigative and intelligence personnel for the
                center.

                Law Enforcement Support Center (LESC)

                The mission of the LESC is to protect the United States and its
                people by providing timely, accurate information and assistance to
                the federal, state, and local law enforcement community. The
                LESC serves as a national enforcement operations center by
                providing customs information and immigration status and identity
                information to local, state, and federal law enforcement agencies
                on aliens suspected of, arrested for, or convicted of criminal
                activity. The LESC operates 24 hours a day, 7 days a week
                assisting law enforcement agencies with information gathered from
                eight DHS databases, the National Crime Information Center,
                Interstate Identification Index, and other state criminal history
                indexes.

                Operation Community Shield

                Operation Community Shield is a national law enforcement
                initiative to fight violent transnational gangs threatening public
                safety. Under this initiative, ICE uses its criminal and
                administrative authorities against gangs and gang members in
                collaboration with federal, state, and local law enforcement
                partners. The goal of Operation Community Shield is to identify,
                locate, arrest, and prosecute gang members and associates and
                ultimately disrupt and dismantle gang organizations.

                Operation Firewall

                Smuggling bulk currency out of the United States is a method for
                moving illicit proceeds across our borders. To combat the use of
                bulk cash smuggling by criminal organizations, the ICE and DHS’
                Customs and Border Protection developed a joint strategic bulk
                cash smuggling initiative called Operation Firewall. Operation
                Firewall has resulted in the seizure of more than $80 million in
                U.S. currency and negotiable instruments of suspected narcotics
                and other criminal proceeds.

                Operation Predator

                Operation Predator is a program designed to identify, investigate,
                and, as appropriate, administratively deport child predators. ICE
                coordinates and integrates investigative efforts with state, local,
                      The Performance of 287(g) Agreements

                                    Page 81
Appendix D
ICE ACCESS Programs

                and foreign law enforcement to identify, arrest, and prosecute the
                principals who are involved in international pedophilic groups or
                who derive proceeds from commercial child exploitation ventures.

                Rapid Removal of Eligible Parolees Accepted for Transfer
                (REPAT)

                The ICE Rapid REPAT program is designed to expedite the
                process removing criminal aliens from the United States by
                allowing selected criminal aliens incarcerated in U.S. prisons and
                jails to accept early release in exchange for voluntarily returning to
                their country of origin. Eligible aliens agree to waive appeal rights
                associated with their state conviction(s) and must have final
                removal orders. In states where Rapid REPAT is implemented,
                certain aliens who are incarcerated in state prison and who have
                been convicted of non-violent offenses may receive early
                conditional release if they have a final order of removal and agree
                not to return to the United States. ICE has such arrangements with
                four states and Puerto Rico.

                Secure Communities

                The Secure Communities program aims to improve the
                identification of criminal aliens and prioritize the removal of
                dangerous criminal aliens. Under the program, ICE provides state
                and local LEAs with access to biometric identification systems that
                permit them to perform integrated record checks on all arrested and
                incarcerated persons, as well as on those criminals previously
                released from custody. ICE uses information from these checks to
                prioritize the immigration processing and removal of aliens based
                on their threat to public safety.




                       The Performance of 287(g) Agreements 


                                     Page 82 

Appendix E
287(g) Program Jurisdictions

       287(g) Jurisdictions

                ICE has 287(g) agreements with 67 LEAs. As of October 28, 2009, six of
                these agreements remained agreements in principle, as they were pending
                approval by a local governing body. We have listed participating
                jurisdictions below by state, and included those with which ICE has an
                agreement in principle but for which the MOA is pending local approval.

Table 3. Jurisdictions Participating in the 287(g) Program
                                                 Program Model                  MOA
          Participating Jurisdictions                      Task         Originally    Current
                                                       Jail
                                                               Force     Signed        Status
Alabama
     Alabama Department of Public Safety                         �      9/10/2003     Signed
     Etowah County Sheriff's Office                        �             7/8/2008     Signed
Arkansas
    Benton County Sheriff's Office                         �     �      9/26/2007     Signed
    City of Springdale Police Department                         �      9/26/2007     Signed
    Rogers Police Department                                     �      9/25/2007     Signed
    Washington County Sheriff's Office                     �     �      9/26/2007     Signed
Arizona
     Arizona Department of Corrections                     �            9/16/2005     Signed
     Arizona Department of Public Safety                         �      4/15/2007     Signed
     City of Mesa Police Department                              �                    Pending
     City of Phoenix Police Department                           �      3/10/2008     Signed
     Florence Police Department                                  �      10/21/2009    Signed
     Maricopa County Sheriff's Office                      �             2/7/2007     Signed
     Pima County Sheriff's Office                          �     �      3/10/2008     Signed
     Pinal County Sheriff's Office                         �     �      3/10/2008     Signed
     Yavapai County Sheriff's Office                       �     �      3/10/2008     Signed
California
     San Bernardino County Sheriff's Office                �            10/19/2005    Pending
Colorado
     Colorado Department of Public Safety                        �      3/29/2007     Signed
     El Paso County Sheriff's Office                       �            5/17/2007     Signed
Connecticut
    City of Danbury Police Department                            �      10/15/2009    Signed
Delaware
     Delaware Department of Corrections                    �            10/15/2009    Signed




                               The Performance of 287(g) Agreements 


                                              Page 83
 

Appendix E
287(g) Program Jurisdictions

                                                       Program Model               MOA
            Participating Jurisdictions                           Task     Originally    Current
                                                         Jail
                                                                  Force     Signed        Status
Florida
     Bay County Sheriff's Office                                    �      6/15/2008     Signed
     Collier County Sheriff's Office                         �      �       8/6/2007     Signed
     Florida Department of Law Enforcement                          �       7/2/2002     Signed
     Jacksonville Sheriff's Office                           �              7/8/2008     Pending
Georgia
    Cobb County Sheriff's Office                             �             2/13/2007     Signed
    Georgia Department of Public Safety                             �      7/27/2007     Signed
    Gwinnett County Sheriff's Office                         �             10/15/2009    Signed
    Hall County Sheriff's Office                             �      �      2/29/2008     Signed
    Whitfield County Sheriff's Office                        �              2/4/2008     Signed
Maryland
    Frederick County Sheriff's Office                        �      �       2/6/2008     Signed
Minnesota
    Minnesota Department of Public Safety                           �      9/22/2008     Signed
Missouri
     Missouri State Highway Patrol                                  �      6/25/2008     Signed
Nevada
    Las Vegas Metropolitan Police Department                 �              9/8/2008     Signed
New Hampshire
    Hudson City Police Department                                   �       5/5/2007     Signed
New Jersey
    Hudson County Department of Corrections                  �             8/11/2008     Signed
    Monmouth County Sheriff's Office                         �             10/15/2009    Signed
North Carolina
     Alamance County Sheriff's Office                        �             1/10/2007     Signed
     Cabarrus County Sheriff's Office                        �              8/2/2007     Signed
     Durham Police Department                                       �       2/1/2008     Signed
     Gaston County Sheriff's Office                          �             2/22/2007     Signed
     Guilford County Sheriff's Office                               �      10/15/2009    Signed
     Henderson County Sheriff's Office                       �             6/25/2008     Signed
     Mecklenburg County Sheriff's Office                     �             2/27/2006     Signed
     Wake County Sheriff's Office                            �             6/25/2008     Signed
Ohio
       Butler County Sheriff's Office                        �      �       2/5/2008     Signed




                                  The Performance of 287(g) Agreements 


                                                Page 84
 

Appendix E
287(g) Program Jurisdictions

                                                       Program Model               MOA
           Participating Jurisdictions                             Task    Originally    Current
                                                            Jail
                                                                   Force    Signed        Status
Oklahoma
    Tulsa County Sheriff's Office                           �       �       8/6/2007     Signed
Rhode Island
    Rhode Island Department of Corrections                  �                            Pending
    Rhode Island State Police                                       �      10/15/2009    Signed
South Carolina
     Beaufort County Sheriff's Office                               �      6/25/2008     Signed
     Charleston County Sheriff's Office                     �                            Pending
     York County Sheriff's Office                           �              10/16/2007    Signed
Tennessee
    Davidson County Sheriff's Office                        �              2/21/2007     Signed
    Tennessee Department of Safety                                  �      6/25/2008     Signed
Texas
     Carrollton Police Department                           �              8/12/2008     Signed
     Farmers Branch Police Department                               �       7/8/2008     Signed
     Harris County Sheriff's Office                         �              7/20/2008     Pending
Utah
       Washington County Sheriff Office                     �              9/22/2008     Signed
       Weber County Sheriff's Office                        �              9/22/2008     Signed
Virginia
      Herndon Police Department                                     �      3/21/2007     Signed
      Loudoun County Sheriff's Office                               �      6/25/2008     Signed
      Manassas Park Police Department                               �      3/10/2008     Signed
      Manassas Police Department                                    �       3/5/2008     Signed
      Prince William County Police Department                       �      2/26/2008     Signed
      Prince William County Sheriff's Office                        �      2/26/2008     Signed
      Prince William-Manassas Regional Jail                 �               7/9/2007     Signed
      Rockingham County Sheriff's Office                    �       �      4/25/2007     Signed
      Shenandoah County Sheriff's Office                    �       �      5/10/2007     Signed
Source: ICE OSLC.




                                The Performance of 287(g) Agreements 


                                                Page 85 

Appendix F
Major Contributors to This Report


                   Deborah Outten-Mills, Chief Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Justin H. Brown, Senior Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Jacqueline Simms, Senior Inspector, Department of Homeland
                   Security, Office of Inspector General, Office of Inspections

                   Morgan Ferguson, Inspector, Department of Homeland Security,
                   Office of Inspector General, Office of Inspections

                   Tatyana Martell, Inspector, Department of Homeland Security,
                   Office of Inspector General, Office of Inspections


                   The following individuals contributed as subject matter experts in
                   the area of civil rights and civil liberties:

                   Bruce Friedman, Senior Policy Advisor, Department of Homeland
                   Security, Office for Civil Rights and Civil Liberties

                   Amy Cucinella, Policy Advisor, Department of Homeland
                   Security, Office for Civil Rights and Civil Liberties




                         The Performance of 287(g) Agreements 


                                       Page 86 

Appendix G
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Deputy Chiefs of Staff
                      General Counsel
                      Executive Secretariat
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Acting Officer for Civil Rights and Civil Liberties
                      Assistant Secretary for U.S. Immigration and Customs
                        Enforcement
                      Director, GAO/OIG Liaison Office
                      ICE Audit Liaison

                      U.S. Department of Justice

                      Assistant Attorney General for Civil Rights
                      DOJ GAO/OIG Liaison

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS Program Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




                            The Performance of 287(g) Agreements 


                                          Page 87
 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
